<html>
<title> - STRENGTHENING AMERICAN DIPLOMACY: REVIEWING THE STATE DEPARTMENT'S BUDGET, OPERATIONS AND POLICY PRIORITIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                   STRENGTHENING AMERICAN DIPLOMACY:
                REVIEWING THE STATE DEPARTMENT'S BUDGET,
                    OPERATIONS AND POLICY PRIORITIES

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 23, 2018

                               __________

                           Serial No. 115-140

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/

                              
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-175PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7017001f301305030418151c005e131f1d5e">[email&#160;protected]</a>                     
                     
                     
                     
                    
                     
                     
                     
                     COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Mike Pompeo, Secretary of State, U.S. Department of 
  State..........................................................     5

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Mike Pompeo: Prepared statement....................     8

                                APPENDIX

Hearing notice...................................................    80
Hearing minutes..................................................    81
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    83
Written responses from the Honorable Mike Pompeo to questions 
  submitted for the record by:
  The Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    85
  The Honorable Eliot L. Engel, a Representative in Congress from 
    the State of New York........................................    86
  The Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................   121
  The Honorable Albio Sires, a Representative in Congress from 
    the State of New Jersey......................................   132
  The Honorable Paul Cook, a Representative in Congress from the 
    State of California..........................................   137
  The Honorable Gerald E. Connolly...............................   143
  The Honorable David Cicilline, a Representative in Congress 
    from the State of Rhode Island...............................   147
  The Honorable Ami Bera, a Representative in Congress from the 
    State of California..........................................   150
  The Honorable Lois Frankel, a Representative in Congress from 
    the State of Florida.........................................   155
  The Honorable Robin L. Kelly, a Representative in Congress from 
    the State of Illinois........................................   162
  The Honorable Dina Titus, a Representative in Congress from the 
    State of Nevada..............................................   164
  The Honorable Bradley S. Schneider, a Representative in 
    Congress from the State of Illinois..........................   166
  The Honorable Ted Lieu, a Representative in Congress from the 
    State of California..........................................   175

 
                   STRENGTHENING AMERICAN DIPLOMACY:
                    REVIEWING THE STATE DEPARTMENT'S
                     BUDGET, OPERATIONS AND POLICY
                               PRIORITIES

                              ----------                              


                        WEDNESDAY, MAY 23, 2018

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:00 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. We will call the committee to order.
    I'd like to welcome Secretary of State Mike Pompeo and 
congratulations, Mr. Secretary. Congratulations on your service 
to the U.S. Army, to your service in the U.S. House of 
Representatives, as CIA Director, and now, as our Nation's 70th 
Secretary of State.
    The committee looks forward to working with you, in a 
bipartisan way, to meet our challenges and to seize our 
opportunities.
    We have made important progress on a major security 
challenge--routing ISIS on the battlefield. This is a big 
development, one that you've played a role in, and, Mr. 
Secretary, we must maintain the momentum.
    Islamist terrorism will threaten us for years and years to 
come. Increasing pressure on Iran and checking its hegemonic 
moves is imperative.
    Our partner, Israel, is on the front lines. But Iran's ICBM 
program is a danger to us--intercontinental means from there to 
here.
    Your Monday speech, Mr. Secretary, outlined a much-needed 
strategy to match Iran's range of hostile activities. The 
challenge now is to present a unified front with our allies.
    Last budget hearing, I said that our Nation's longstanding 
commitment to global stability, open markets, alliances, and 
the rule of law, and human rights has paid off greatly. If we 
don't lead, others will.
    Our formidable military, though, is only one side of the 
coin. You, Secretary Pompeo, have rightly recognized that 
diplomacy must lead our foreign policy.
    American diplomats serve on the front lines. We need them 
well-trained. I'm encouraged by the department's interest in 
strengthening the Foreign Service Institute.
    And we need sufficient funding to combat wildlife and drug 
trafficking, to build open markets, to save lives during 
natural disasters, and to do the many other things our aid 
accounts support.
    The appropriations process will adequately fund diplomacy 
and development, I believe. The National Endowment for 
Democracy, in particular, should be strongly supported.
    Let's face it. Democracy is on the ropes worldwide. 
Supporting it is a moral and strategic good. NED is backing 
critical programming in Venezuela, Nigeria, and worldwide.
    It is no time to cut this programming. On the challenge of 
Russia, yes, we should cooperate with Moscow when possible. But 
we must diligently protect our national security.
    The administration has rightly provided lethal arms to 
Ukraine, which remains under siege by Russian proxies. A far 
more severe threat is Moscow's information war. This committee 
has heard that Moscow's goal isn't so much to make Western 
citizens think this or think that. Russia's goal is to destroy 
all confidence in objective thought.
    By undermining fact-based discussion with lies, our enemies 
hope to gravely damage Western democracies. The State 
Department must aggressively counter disinformation through its 
Global Engagement Center, other means, and with department 
officials speaking out for the truth.
    We wish the administration success negotiating with North 
Korea. It will be a tall task to strike a viable, effective 
nuclear agreement.
    Ranking Member Engel and I have led efforts to ratchet up 
the financial pressure on North Korea over many years with the 
legislation we have passed here in the committee. Keep up that 
pressure, Mr. Secretary.
    It is a big reason why the Kim regime wants to talk with 
President Trump. And as this process plays out, work closely 
with Congress. We're stronger together.
    And I'll now turn to our ranking member, Mr. Eliot Engel.
    Mr. Engel. Thank you, Mr. Chairman, and Mr. Secretary, 
welcome to the Foreign Affairs Committee. We always pride our 
committee in being the most bipartisan committee in Congress 
and always say that we believe when we talk about foreign 
policy, partisanship should stop at the water's edge.
    It doesn't mean that we won't have disagreements and some 
of those we are going to discuss today. But I think that this 
committee, perhaps more than any other committee in Congress, 
has worked very effectively to set up bipartisan majorities.
    So welcome, Mr. Secretary. You're no stranger here, and we 
look forward to what you have to say, obviously, today.
    After the administration sent its 2017 budget request, 
which we were very disappointed with, Congress' message was 
clear. Cutting diplomacy and development by a third was 
unacceptable.
    We sent that message through letters and statements and, 
finally, with the 2018 funding bill, and let me say once again 
bipartisan majorities stopped those draconian cuts from going 
forward.
    But this administration has ignored that message, 
unfortunately, and rejected the will of Congress. The White 
House wants to cut $334 million as part of the so-called 
recision package.
    How short-sighted is this request? The day after we 
received these proposed cuts including cutting $\1/4\ billion 
from our Ebola response, reports surfaced of an Ebola outbreak 
in the DRC.
    The reason we fight pandemic overseas is so we don't have 
to fight them here at home. The American people, whether in New 
York or in Kansas, are concerned about things like Ebola 
because diseases don't respect borders.
    We cannot allow another outbreak to go unchecked because 
the White House considers arbitrary budget cuts to be good 
politics.
    Now, the State Department--and I realize this was all 
happening before you came, Mr. Secretary, so I am hoping that 
you can work with us in trying to change these things and to 
right the wrongs--the State Department has now sent us another 
budget that would again slash diplomacy and development efforts 
to promote our security that keep America safe. It's, frankly, 
insulting that the administration would send us another request 
like this when we rejected it last year.
    So I predict that Congress will reject this budget just as 
we did last year's. Again, Congress, on a bipartisan basis, 
rejected the budget.
    Fortunately, Congress has the final say on how much we 
spend on international affairs. But whatever the size of the 
check Congress writes, it's, obviously, the administration's 
job to make policy and manage departments and, Mr. Secretary, I 
worry about what you've inherited at the State Department.
    The administration's first priority was an ill-conceived 
reorganization effort. It cost millions of taxpayer dollars for 
private consultants but resulted in absolutely nothing beyond a 
demoralized and depleted State Department.
    On your predecessor's watch, the department lost more than 
200 Foreign Service officers, many among our most senior 
diplomats, some of the very experienced diplomats you once 
called incredibly professional.
    The department will soon have only a single official at the 
rank of career Ambassador, the highest rank of our diplomats. A 
staggering number of senior positions remain vacant.
    Perhaps most troubling are the allegations from 
whistleblowers who have reported to this committee that the 
administration has targeted career employees because of their 
perceived political beliefs.
    This is, potentially, a violation of laws governing State 
Department personnel. It also strikes at the idea that politics 
should stop at the water's edge--that the way we carry out 
foreign policy should put American interests first and leave 
partisan interests and concerns behind. It's how we run this 
committee.
    But that principle has been under attack recently. I think 
you can draw a line from the moment straight back to the most 
egregious example, the recent memory of playing politics with a 
tragedy. I know the Benghazi Select Committee on which you sat, 
the creation that was set up to tear Hillary Clinton down as 
the majority leader admitted that was used to impugn the 
character of one of your predecessors.
    Partisanship has no place in the halls of the State 
Department. I am glad the Inspector General is now looking into 
those whistleblower allegations as Senator Menendez, Mr. 
Cummings, and I advised.
    But the department has not produced the required documents 
that would allow Congress to conduct effective oversight 
despite a commitment from the spokesperson to do so.
    So I hope, Mr. Secretary, that you'll help to get us those 
documents and that you'll leave behind any political 
considerations in the way the department is run under your 
leadership.
    Unfortunately, after 16 months we are feeling the effects 
of a foreign policy that has marginalized diplomacy and made 
Americans less safe.
    The President has alienated our friends, doubted the value 
of our alliances, and undermined American credibility around 
the world.
    The result? A recent Gallup poll put America's global 
approval rating at an historical low of 30 percent, nearly 20 
percent lower than the previous year.
    At the rate we are breaking our word and unwinding our 
country's commitments, I imagine we will see that number dip 
even further.
    The administration's slogan of ``America first'' it's 
looking, unfortunately, more like ``America last'' and 
``America alone'' and ``America by itself in the world'' where 
we don't nurture alliances and cultivate new friendships, where 
we don't put our values at the center of our politics, where we 
don't help countries become stronger and more stable partners 
on the global stage.
    An America in that world is an America that's less safe. 
Perhaps the worst example that the administration has blatantly 
ignored is the ongoing threat to our security, which is 
Russia's attack on American democracy.
    As you said when you served as CIA Director, we are staring 
another Russian attack in the face. I agree with you. I am 
worried that the President is just going to let it happen.
    I am worried that even if we did want to push back, the 
State Department is so hobbled and hallowed out that we won't 
be able to. I am worried that the administration is giving 
Russia a pass because Putin supported President Trump over 
Hillary Clinton.
    If we allow foreign interference in our elections so long 
as it supports our political objectives, then we have put party 
before country and put our democracy in crisis. I would be just 
as outraged if the Russians helped Hillary Clinton. I think the 
Russians should stay out of our democracy.
    There are so many issues I could get into but I want all 
our members to have a chance to ask questions today. There are 
tough questions, Mr. Secretary, but I look forward to working 
with you and I know that your service here in the House will do 
you well in working together with the House to effectuate a 
better foreign policy for our country.
    Thank you.
    Chairman Royce. This morning, I am pleased to welcome 
Secretary of State Mike Pompeo to the committee. Secretary 
Pompeo previously served as Director of the Central 
Intelligence Agency and as a Member of Congress representing 
the people of the Fourth District of Kansas.
    Among his committee assignments, he served as a member of 
the Intelligence Committee. He also served in the U.S. Army and 
is a graduate of both West Point and Harvard Law School, and we 
appreciate the Secretary being with us today.
    Without objection, the witness' full prepared statement 
will be made part of the record. Members will have 5 calendar 
days to submit any statements or questions or any extraneous 
material that they might have for the record.
    The goal today is to get to all of our members. To make 
that goal, I'll ask members to be aware of their allotted 5 
minutes. That's for your question and that's for the 
Secretary's answers to your questions.
    We do have questions for the record, and speaking of that, 
I have a question for the record that I'd like to submit on 
behalf of Mr. Donovan, without objection, addressing the State 
Department's role in combating the opioid crisis that is 
ravaging communities across America.
    So we will begin now with Secretary Pompeo's testimony.
    Mr. Secretary.

  STATEMENT OF THE HONORABLE MIKE POMPEO, SECRETARY OF STATE, 
                    U.S. DEPARTMENT OF STATE

    Secretary Pompeo. Thank you. Thank you, Chairman Royce. 
Thank you, Ranking Member Engel. It's good to see you both 
again, and thank you, distinguished members of the committee, 
that I had the privilege to serve with. It is great to be back, 
and I appreciate the opportunity to discuss the 2019 budget 
request----
    Chairman Royce. And, Mr. Secretary, maybe if we straighten 
the microphone it'll be----
    Secretary Pompeo. Yes. How's that? Is that good enough?
    Chairman Royce. Perfect.
    Secretary Pompeo. All right. Very good.
    Thanks. I want to talk about both the State Department and 
USAID's budgets this morning. In order to achieve the 
objectives laid out in the national security strategy we have a 
plan and you'll hear a great deal about it today.
    The proposed request reflects our obligation to use 
taxpayer dollars wisely and effectively. Our request also makes 
clear the United States must exert a proportional financial 
commitment in the pursuit of goals shared by the entire 
international community.
    It's time for other nations, especially those with high 
GDPs, to assume greater responsibilities and devote greater 
resources toward our common objectives. Whether it's crushing 
terrorists, stopping Iran's malign behavior, strengthening the 
NATO Alliance, eradicating infectious diseases, and so much 
more, we expect good help--good financial support from our 
partners and allies.
    President Trump is committed to diplomacy as the primary 
means of achieving the United States foreign policy objectives. 
So am I.
    We must maintain America's historic role as a truly global 
power whose first instinct and overwhelming preference is to 
use diplomacy to solve global challenges. We are already seeing 
this in the preparations for our historic meeting with North 
Korea, still scheduled for June 12th.
    We have a generational opportunity to resolve a major 
national security challenge. Our eyes are wide open to the 
lessons of history but we are optimistic that we can achieve an 
outcome that would be great for the world.
    Our posture will not change until we see credible steps 
taken toward the complete, verifiable, and irreversible 
denuclearization of the Korean Peninsula.
    On Monday, I unveiled a new direction for the President's 
Iran strategy. We will apply unprecedented financial pressure, 
coordinate with our DoD colleagues on deterrence efforts, 
support the Iranian people--perhaps more importantly--and hold 
out the prospect for a new deal with Iran. It simply needs to 
change its behavior.
    We seek to work with as many partners, friends, allies as 
possible to achieve the common objective of stopping all of 
Iran's nuclear and non-nuclear threats.
    The President's highest priority is keeping the American 
people safe. This request for $7.3 billion in security 
assistance will help protect Americans at home and overseas and 
I look forward to talking more about that today.
    The State Department will continue to lead the 
international efforts to denuclearize North Korea and prevent 
other actors from unlawfully acquiring weapons of mass 
destruction as their means of delivery, while strengthening the 
capacity of partner nations to do so as well. Countering 
proliferation is at the top of President Trump's national 
security agenda.
    The budget request also calls for $5.7 billion support for 
coalition efforts to continue to defeat ISIS and other 
transnational terrorist and criminal groups that threaten 
Americans everywhere.
    The State Department and USAID will sustain programs that 
address the conditions on the ground that give rise to those 
threats and we will diligently work to attract additional 
donors to support these very same efforts.
    America's prosperity and national security depend on a 
strong and growing American economy. This budget request seeks 
$2.2 billion to help stimulate American economic growth by 
expanding markets for U.S. investment and ensuring that partner 
countries can fully participate in the global economy.
    America's message, a noble one, must be shared with the 
world at all times.
    Chairman Royce, you mentioned the Global Engagement Center. 
We will work with the $55 million-plus available to cover both 
its original mission--counter extremism--plus countering state-
sponsored disinformation campaigns.
    We will not tolerate Russian interference in our 2018 
elections. Much work has been done. There is more to do. Rest 
assured that we will take the appropriate counter measures in 
response to the continued Russian efforts.
    Finally, let me also update you on what's happening inside 
the State Department. Our workforce is the most important 
asset. Since become Secretary of State, now 3 weeks and a 
couple days ago, one of my highest priorities has been ensuring 
the finest diplomatic corps in the world is fully prepared and 
empowered to do its work in every corner.
    I am unleashing teams to do what they do best on behalf of 
the American people. Last week, I held my first town hall in 
which I laid out my vision and committed to working as one team 
with all of our personnel.
    In 3 weeks, they've give me great support. I have taken 
their counsel and I have relied on their expertise greatly. 
There are many challenges that remain.
    Among my first acts was to begin to put the team back on 
the field. We lifted the hiring freeze on eligible family 
members--indeed, broadened that to lifting the hiring freeze 
for the entire Foreign and Civil Service.
    All Foreign Service and Civil Service hiring will be 
consistent with funding levels but the freeze is no longer. To 
help the team get on the field, I also know that we have got 
work to do on some of our systems' IT at the front.
    I know our professionals need that assistance to perform 
their work efficiently.
    And with that, Mr. Chairman, I am happy to conclude my 
statement, as it's been submitted for the record. I am happy to 
take questions from you and the committee.
    [The prepared statement of Secretary Pompeo follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Chairman Royce. Thank you very much, Mr. Secretary.
    Let me begin by recognizing your efforts to secure the 
release of Americans wrongly detained in North Korea. So we are 
very glad to have them home.
    When we think about what happened to Otto Warmbier, your 
efforts were all the more important in terms of securing them. 
You are one of the few Americans also to have met Kim Jong-un, 
and I would just ask you for your opinion on this. What are his 
goals for this negotiation?
    Many have speculated that one of those goals is to try to 
split the U.S. and South Korea and our alliance with South 
Korea. I will just ask you what do you think his goal is here?
    Secretary Pompeo. So in my conversations with him, we've 
talked about what our mutual goals are--the things that the 
world demands and that America demands and the things that 
North Korea wants to see for itself as well.
    There's places where we still have lots of work to do to 
find common ground. But he has shared, candidly, that he 
understands that economic growth for his people, the well-being 
of his people depends on a strategic shift and we hope he's 
prepared to make that.
    Our demands have been unambiguous. When I spoke with him, I 
could not have been clearer about the scope of the verification 
work that would be required--all of the elements that would be 
necessary in order for America to understand that there had 
been real denuclearization. He took those on board. In return, 
he made clear it was important to him that when that time 
came--when those objectives had been achieved--that he, in 
turn, would receive economic help from America in the form of 
private sector businesses, knowledge know-how from others, 
perhaps--contributions, foreign assistance, and the like and 
that he wanted security assurances from the world--the end of 
the status that sits between South and North Korea, with the 
eventual goal of being a peace treaty.
    Those were the objectives we discussed. I am very hopeful 
that he and President Trump will get a chance to elaborate on 
that further in the next couple weeks.
    Chairman Royce. As you prepare for the potential June 
summit in Singapore, I think it's very important we keep the 
pressure applied here to the Kim regime.
    I will ask you this question--when will the administration 
begin implementing sanctions against shipping registries--this 
is something that I've had a particular concern about--on those 
governments that knowingly violate U.N. Security Council 
resolutions barring trade with North Korea?
    These were mandated by Title 3 of the act we passed here, 
the Countering America's Adversaries Through Sanctions Act.
    Secretary Pompeo. I don't know the answer to that. Let me 
get back to you, Congressman Royce. I do know the 
administration has, again, redoubled its efforts on ship-to-
ship transfers----
    Chairman Royce. Okay.
    Secretary Pompeo [continuing]. Something I think is 
imperative. With respect to the registry and sanctions, if I 
may I will take that back for the record.
    Chairman Royce. I appreciate that.
    The last question I was going to ask you, Mr. Secretary, is 
for those who've talked to anybody who's ever been in and out 
of those prison camps in North Korea, it is a human rights 
nightmare.
    You have got over 100,000 North Koreans suffering in 
barbaric conditions in those camps. It's important that any 
future economic engagement with North Korea not empower the 
regime to continue its brutal mistreatment of Koreans in that 
kind of circumstance, and regardless of any agreement, we 
should be ramping up, I think, Radio Free Asia broadcasting and 
dissemination of information.
    And I think it's critical that we maintain our military 
deterrence. Last week, the U.S. reportedly cancelled a U.S. B-
52 bomber exercise over South Korea. Was this a concession to 
Kim Jong-un's regime?
    Secretary Pompeo. Chairman Royce, I will leave the 
discussion of that military exercise to Secretary Mattis. It is 
my view that we have made zero concessions to Chairman Kim to 
date and we have no intention of doing so.
    Chairman Royce. Thank you, Mr. Secretary.
    Well, in our interest to get to all the members, I am going 
to go to Mr. Engel now for his questions.
    Thank you.
    Secretary Pompeo. Thank you.
    Mr. Engel. Thank you, Mr. Chairman.
    Mr. Secretary, budgets reflect an administration's values, 
or lack thereof, and I realize a lot of this happened before 
you came. So we are looking for you----
    Secretary Pompeo. For 2020, yes.
    Mr. Engel [continuing]. To try to right the wrong. The 
international affairs budget proposal that President Trump now 
has sent to Congress 2 years in a row brings with it a clear 
message to the world that the United States has no interest in 
maintaining our global leadership role because of the cuts.
    It's a budget that makes Americans less safe. And as you 
know, I am not alone in feeling this way. Over 150 retired 
generals and admirals, former Secretaries of State from both 
parties, Fortune 500 CEOs, and religious leaders all agree that 
the administration's proposed cuts to the international affairs 
budget would have a devastating effect on U.S. global 
leadership.
    So why are all these people wrong? In the last 2 years, 
Congress restored the cuts. Is Congress wrong, too? I would 
like to hear your views on it and I hope you will lead us into 
a more enlightened path than we've seen so far.
    Secretary Pompeo. Ranking Member Engel, thanks for the 
question.
    Here's the commitment I've made to the team at the State 
Department, the commitment I've made to President Trump, the 
commitment I will make to you here today.
    I will ensure that the State Department has every dollar it 
needs to achieve its mission around the world. You mentioned 
the international affairs budget. There's humanitarian 
assistance money. There's lots of different pieces of the State 
Department's budget. I will make sure we have every single 
dollar we need and not $1 more.
    Mr. Engel. And I hope not $1 less.
    Secretary Pompeo. Every dollar we need, not $1 more.
    Mr. Engel. This past March, Ranking Member Cummings, 
Senator Menendez, and I wrote to the State Department 
expressing concern over allegations that senior officials, 
including the Director of Policy Planning, retaliated against 
career State Department employees based on their national 
origin or because they were perceived as not sufficiently loyal 
to the President.
    Do you believe officials who targeted career employees in 
this way should be working at the State Department?
    Secretary Pompeo. I do not.
    Mr. Engel. Thank you. In the letter I sent with Ranking 
Member Cummings and Senator Menendez, we requested access to 
emails and other documents, a request that Heather Nauert 
confirmed to the press would be granted.
    So far we haven't heard anything. Can you give us an idea 
of when will we be granted access to those documents?
    Secretary Pompeo. I can't, but I will get you an answer. 
You have my commitment I will have you an answer on the time 
line by the end of this week.
    Mr. Engel. Okay. Thank you.
    And finally, you said--and I agree with you--that Russia is 
working to interfere in this year's election just as it did in 
2016. Has the administration done enough to deter and 
countering Russian interference in our next election, which is 
only 6 months away?
    Secretary Pompeo. Indeed, elections are ongoing, as you all 
know better than I do, right. We have primary elections going 
on even as we speak.
    There is a great deal more work to do. Having said that, I 
am incredibly proud of the work that this administration has 
done in countering Russia. It is light years better than was 
done in the previous administration. I could go on for a long 
time speaking about them. I am happy to enumerate them if you'd 
like to do so.
    But I have to say there's more work to do. We have not been 
able to achieve effective deterrence of some of these efforts 
of the Russians. But this administration has taken enormous 
efforts to push back against Russia that haven't been done in 
an awfully long time either here in the United States or, 
frankly, from our partners who are even more threatened by 
Russia than we are in Europe and elsewhere.
    Mr. Engel. So is it your position that the administration 
has forestalled the next attack on our democracy? Because if 
so, I haven't seen it.
    Secretary Pompeo. No responsible government official would 
ever state that they believe they've done enough to forestall 
any attack on the United States of America.
    We work diligently at it each day. We reduce threats. We 
take them from the battlefield. We take them from the economic 
sphere. We reduce them diplomatically. We work at it hard every 
day. But I will never share with you that I believe we have 
accomplished that to 100 percent certainty.
    Mr. Engel. Okay. I look forward to working with you on all 
these issues. There are, obviously, many important issues--our 
support for Israel, Iran's aggression, and we could go on and 
on--and I hope that this committee can be a partner with you.
    Our views may diverge, but we are all Americans and we all 
care about these issues and I think it's very important to 
discuss them, to have hearings, and we are glad that you're 
here this morning.
    Secretary Pompeo. Yes, sir. I am counting on the 
partnership with this committee on both sides of the aisle.
    Mr. Engel. Okay. Thank you.
    Chairman Royce. Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Mr. Secretary, welcome. It's great to see you in this 
position. I wanted to commend you and the administration for 
calling this week's election in Venezuela what it was--a sham 
and illegitimate.
    The administration has stood strong in support of the 
Venezuelan people, using new Executive orders and targeting the 
Maduro regime with sanctions. Thank you for that.
    I also want to thank you for the actions the administration 
has taken against the Ortega regime. The situation in Nicaragua 
is quickly deteriorating and it is alarming--over 75 killed and 
hundreds more injured or detained in just these past weeks.
    We need to take swift action before we are facing a similar 
situation--a crisis in Nicaragua--that we face in Venezuela.
    I urge the administration to press our friends in the 
Senate to pass our NICA bill so it has even more tools at its 
disposal to hold Ortega accountable. We passed it out of the 
full House twice already.
    I also wanted to follow up on a letter that I had sent to 
you last week alongside Congressman Deutch, McCaul, and Lowey. 
We've met with the families of the American citizens and legal 
permanent residents being held in Iran many times and it's 
clear that they're growing frustrated.
    They see Americans being freed from North Korea and they 
are so happy for them and their families, but I only reminds 
them that there hasn't been any continuity or leadership within 
the administration to resolve their cases.
    But now that the President has announced his intent to 
appoint a special Presidential envoy for hostage affairs, we 
sincerely hope that this individual will lead on those hostage 
cases and have the authority to bring them home.
    I ask for a written response on this following question, 
Mr. Secretary. Does the administration support the Reciprocal 
Access to Tibet Act, H.R. 1872?
    It's a common sense that would help stop China's 
destabilizing behavior in Tibet by revoking the visa of any 
Chinese official found to be responsible for restricting the 
access of U.S. citizens to Tibet.
    And then the one question that I have for you to answer--
the what question--I wanted to follow up on something that I 
had asked Ambassador Satterfield last month. He said he would 
get me a written response but I don't--I don't have it yet.
    What is the justification for allowing the PLO office to 
remain open, given the lapse in waiver authority with no new 
waiver having been issued?
    And it's particularly timely, Mr. Secretary, given that the 
Palestinians submitted a referral on Israel to the ICC this 
week, which would trigger several provisions of U.S. law.
    So that's the one question I have and thank you for the 
administration moving the Embassy to its rightful capital.
    Secretary Pompeo. Congresswoman Ros-Lehtinen, thank you.
    With respect to leaving the office open without a waiver, 
with your permission I will get back to you and find out the 
details. There may be a legal issue that I am not aware of.
    With respect more broadly to issues there, continued 
funding for UNRRA is under review. We are trying to figure out 
how to make sure we get that right, to continue to make sure 
that there's security while note rewarding bad behavior. We are 
deeply aware of the Taylor Force Act and its implications as 
well and we are working through that process.
    I've had one chance to be briefed on the State Department's 
role there. There will be more. And if I might take just 1 
second to address two other points you made, first, with 
respect to Venezuela we did this morning receive a formal 
notification that our charge d'affaires had been PNGed.
    We will respond appropriately, certainly, reciprocally. But 
perhaps more than that, perhaps proportionately.
    We understand that there's a second U.S. officer who will 
also be PNGed. We are watching the Maduro regime continue to 
engage in destructive behavior for the Venezuelan people.
    And then, finally, you opened with your concerns about the 
hostages being held by the Islamic Republic of Iran. I know 
those cases well--the case of Bob Levinson. I mentioned three 
others in my remarks on Monday.
    I know Mr. O'Brien as well, who will be our special envoy, 
know that it will a very important part of what the State 
Department does to try and get not only those held in Iran but 
Americans held throughout the world back home to their 
families. It was quite a remarkable thing to be able to bring 
home three from North Korea. There remains a great deal of work 
to do.
    Ms. Ros-Lehtinen. It's so wonderful to have you in this 
post. Thank you, Mr. Secretary.
    Mr. Chairman.
    Chairman Royce. Mr. Brad Sherman of California.
    Mr. Sherman. I will have a number of statements and 
questions for the record. I know we have this 5-minute time 
limit and I look forward to reading most of your answers.
    As to Iran--you knew I would do that--as to Iran, we need 
to get Europe on our side to impose sanctions, whether or not 
they view those as sanctions because they don't like the Iran 
deal or because they don't like Iran's other non-nuclear 
policies.
    I want to thank you for bringing to the attention of our 
European friends the assassinations that Iran has been 
responsible for in Europe. I know you faced some push back on 
that.
    But whether it's the death in Bulgaria in 2012 by the 
assassination of Hezbollah, an Iranian surrogate, or whether 
it's the death just last year in Istanbul or whether it's the 
Netherlands assassination of an advocate for the Arab minority 
in Iran, there are assassinations in Europe.
    And you should know that sitting right there Secretary 
Kerry told this committee that it is fully consistent with the 
JCPOA for the United States to impose sanctions on Iran for 
their non-nuclear wrongdoing including sanctions against the 
Central Bank of Iran.
    I had only wished that the administration had gone to 
Europe, urging sanctions for that reason rather than asking 
them to repudiate the JCPOA.
    I want to associate myself with the ranking member as to 
the issue of resources and particularly ask you to focus on 
appointing an East Asia and South Asia Assistant Secretary.
    As to Pakistan, it is a country of great importance to us 
and has various regions. I hope the State Department would do 
public diplomacy in the Sindhi language and I hope that you 
would reach out to the leaders of Pakistan about the 
disappearances in Sindh--the force disappearances.
    As to North Korea, I can understand that your bargaining 
position is a complete immediate dropping of their entire 
nuclear weapons program in a verifiable and irreversible 
manner.
    That has been referred to as the Libya model. I would hope 
that, while you can go into negotiations with that, if you can 
come out with verifiable limitations, an end to the creation of 
new fissile material, a halt permanently to their ICBM program, 
that should not be regarded as a failure simply because you 
don't get complete verifiable irreversible denuclearization of 
the Korean Peninsula.
    As to Turkey, I hope that the administration would oppose 
the sale and prevent the sale of the F-35s. They are not a 
weapon to be used against terrorists. They're a weapon to be 
used against Greece.
    And I hope the State Department would at least be neutral 
should Congress consider, as we are considering, the 
remembrance of the millions of Armenian, Greek, Assyrian, 
Chaldean, and Syriac victims of the Ottoman Empire at the 
beginning of the last century.
    As to our trade deficit with China, that grew from $309 
billion to $337 billion in the first year of the administration 
and I hope that we don't see a shuffle where we continue to 
import oil, then China buys our oil and natural gas, and then 
we are told, oh, we've done something about the trade deficit. 
We should not count oil and gas exports to China as a reduction 
in the trade deficit.
    I would hope that when you talk to President Sisi you urge 
him to protect the Christian minority and note that only 53 
permits have been issued to renovate or build churches when 
over 5,500 applications have been made.
    One question for an oral response or a quick response, and 
that is: Can we meet our challenges around the world with a 30 
percent cut in the foreign aid budget?
    Secretary Pompeo. I am still poring through the reports on 
this. A 30 percent cut seems like an awful lot to achieve, so 
you have my word. As I said, we are going to get this piece 
right, I assure you.
    And I want to comment on one other. I am close to making a 
number of significant announcements about new members of the 
team--Assistant Secretary for East Asia Affairs and South 
Central Asia amongst them.
    Ambassador Shannon is retiring here shortly. We'll need a 
replacement for him and we are very close to moving along. 
We've got to get them through the Senate, but I am looking 
forward to getting the whole team built back.
    Chairman Royce. We go now to Chris Smith of New Jersey.
    Mr. Smith. Mr. Secretary, thank you for your leadership. 
Thank you for recognizing the existential threat that Iran 
poses with regards to nuclear weapons and for recognizing what 
needs to be done to try to get us to a better place and a 
negotiated text that is viable and predictable and will protect 
the security of the United States, Israel, and others. So thank 
you for that.
    Mr. Secretary, as author of the Trafficking Victims 
Protection Act, a law that created a comprehensive whole of 
government approach to combatting sex and labor trafficking, 
protecting women from this unbelievable cruelty, both 
domestically and internationally, I respectfully ask, if you 
would, to move as quickly as possible on appointing an 
Ambassador-at-Large.
    That post, which is the point person, has gone unfulfilled, 
and I know you're new on the job, and I know that you care 
deeply about that issue. Please move on that.
    And in like manner, in 2004 I authored the Anti-Semitism 
Special Envoy. That too has not been filled, and I know you 
care deeply about combatting this scourge of anti-Semitism 
which is rising all over the globe. Please move on that as 
well.
    Secretary Pompeo. You have my word we'll move on them.
    Mr. Smith. I appreciate that.
    And thank you for ratcheting up the pressure on Joseph 
Kabila. You know, we have been working really hard in our 
Subcommittee on Africa, Global Health, Global Human Rights, and 
International Organizations.
    We want a smooth transition, as smooth as possible, and 
Kabila certainly has the capability to cause unbelievable 
violence and war, and the sanctions certainly play a real--and 
I know you have already meted out some of those sanctions.
    I especially want to thank you for designating India, 
Brazil, and now Japan as violative of the Sean and David 
Goldman International Child Parental Abduction Return Act.
    Japan is notorious for not returning American children, 
including American service members' children, and your 
department now has taken that step which previously was not 
done to say they are noncompliant with the Goldman Act, and I 
deeply appreciate that and I hope there will be follow-up on 
sanctions with that.
    With regards to the negotiations with China, one of the big 
misses with North Korea, China, and Iran, especially with the 
hostages, was not including human rights in the talks.
    Andrew Natsios, who worked on North Korea issues very 
effectively--a former USAID Administrator--said the big miss 
with North Korea was keeping human rights separate from all the 
negotiations. So I encourage you, if you would. Xi Jinping is 
in a race to the bottom with Kim, frankly, and other dictators 
around the world on religious freedom persecution and like-
minded human rights abuses. So please make that a more robust 
part of the efforts. I know you, personally, believe that and I 
hope you will do that.
    And, finally, over the last couple of days, weeks, I've 
been meeting with Hua Qu, whose husband has now been held in 
Iran in Evin Prison for 653 days. Her husband, Xiyue Wang, is 
an American. He's a graduate student and has done nothing 
wrong. He had all the preclearances before he went to Iran to 
do his studies and then before he returned was arrested and has 
been maltreated.
    His wife, at a big Princeton rally that she put together, 
said, and I quote--very, very telling--she appealed to you and 
to the President. ``My husband,'' she said, ``is an innocent 
man, Mr. President. He is in prison solely because he is an 
American.''
    I just encourage you and I know you believe this and we now 
have a hostage and perhaps it'll be part of his portfolio--Mr. 
O'Brien--Charles O'Brien--who will work on this. It has to be 
24/7 to get these Americans to safety because they are being 
used as pawns by the Iranian regime.
    And, again, having seen her tears, her family, her little 
boy, it just breaks your heart. So the more you can do on that, 
the better.
    Secretary Pompeo. Yes, sir. She is correct in her analysis. 
Her husband is completely innocent and held for a singular 
reason, and I hope you will come out and join me at the State 
Department in a couple weeks when we roll out our International 
Religious Freedom Report. I invite all of you to join us. It's 
an important day. Much work to be done there as well.
    Mr. Smith. Thank you very much, and I would note David 
Saperstein, our former Ambassador-at-Large, obviously, did a 
wonderful job, and Sam Brownback is doing a wonderful job. 
You're doing a great job on religious freedom. It is one of the 
most elemental of all human rights in the world. It is under 
assault perhaps as never before from radical Islamic belief to 
communist dictatorships.
    So, again, I want to thank you for the work that you're 
doing on that. My hope is that Vietnam will be designated a CPC 
country. I also hope that Erdogan in Turkey would also be so 
designated for what he has d1 years to date against the 
Orthodox as well as so many others.
    So I thank you.
    Chairman Royce. Mr. Greg Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman.
    Mr. Secretary, I have some concerns because I can recall 
your immediate predecessor sitting here and he said almost 
exactly the same thing that you said about the budget--that 
they would not spend $1 more. And yet, we received such drastic 
cuts that you heard Mr. Engel speak about and other members.
    So I am worried about that aspect of it. You know, when 
preparing for this hearing I couldn't help but go back and I 
looked at some videotape, and the videotape was actually of 
you, Mr. Secretary, and the attitude that you had about a 
predecessor--you didn't give her any courtesy when Secretary 
Hillary Clinton was sitting in a seat before the Benghazi 
Committee and you scolded her. You went after her with venom. I 
couldn't believe the tape when I saw it and you basically went 
after her about the QDDR report, which you said only included 
two pages of Diplomatic Security. You then said and implied and 
said clearly that meant that the report had no balance and 
therefore diplomacy security was only mentioned a few times and 
so the insinuation was that therefore the Secretary was not 
interested in Diplomatic Security. That came from your mouth at 
that time at that testimony.
    So I went back and I looked at your testimony, Mr. 
Secretary, when you were before the Senate for confirmation. I 
waited patiently here listening to your testimony here today, 
Mr. Secretary.
    I have not heard you mention one single time about 
Diplomatic Security--not once--not once. And then, I know at 
the time too, and I will try not to play with my colleague 
playing politics but we are here on hallowed soil so I think 
we've got to get to the facts of the matter, and on the facts 
of the matter we heard the majority leader, Kevin McCarthy, at 
the time say that it was about bringing Hillary Clinton down.
    And so I hear that I may be giving you the benefit of the 
doubt. If it wasn't about bringing Hillary Clinton down at the 
time, then I ask you, Mr. Secretary, should we conclude that 
because you have not mentioned it, not once, should we 
conclude, based upon that fact, that you do not care about 
Diplomatic Security, Mr. Secretary? Haven't heard it from you--
not once.
    Secretary Pompeo. No. You should not conclude that.
    Mr. Meeks. Okay. I will take you at your word.
    Secretary Pompeo. You should note--if I may--if I may 
respond----
    Mr. Meeks. I will take you at your word. You said no. I 
take you at your word.
    Secretary Pompeo. No, but I feel like I need at least----
    Mr. Meeks. I only have 5 minutes so I am going to take you 
at your word. You will have time. I am going to take you at 
your word----
    Secretary Pompeo. You should know the very first briefing--
--
    Mr. Meeks [continuing]. Because I happen to agree with you.
    Secretary Pompeo [continuing]. The very first briefing I 
received as a nominee was from the head of Diplomatic Security.
    Mr. Meeks. I happen--Mr. Secretary----
    Secretary Pompeo. You should know that the very first 
briefing I received----
    Mr. Meeks. Reclaiming my time. Mr. Secretary, I happen to 
agree with you.
    Secretary Pompeo [continuing]. When I became the Secretary 
of State was from the head of Diplomatic Security.
    Mr. Meeks. I happen to agree with you.
    Secretary Pompeo. You should know that I am diligently 
working on it. I am----
    Mr. Meeks. I happen to agree with you, Mr. Secretary.
    Secretary Pompeo. I take Diplomatic Security very 
seriously. Never make an accusation of that kind.
    Mr. Meeks. I happen to agree with you. Oh, now the real 
Secretary is coming out.
    Chairman Royce. If I--if I could just--if I could just 
explain.
    Mr. Meeks. I am reclaiming my time.
    Chairman Royce. Okay. We are going to give you time but we 
want to give the Secretary a chance to respond.
    Mr. Meeks. Well, he didn't do that with Secretary----
    [Crosstalk.]
    Chairman Royce. Okay.
    Mr. Meeks. He did not--he did not do that with Secretary 
Clinton, let me tell you that.
    Chairman Royce. Okay. Well, we are going to--we are going 
to proceed with the questions and the answers.
    Mr. Meeks. But I agree. I am taking him at his word that 
because--simply because something is not mentioned in a report 
it does not mean that someone doesn't care. I believe that you 
do. That's why I am taking you at your word.
    But I think that we can conclude that what does matter is 
how much money is appropriated for Diplomatic Security, and in 
this whole thing, when I look at the budgets that was for 
Diplomatic Security I saw that in fiscal year--under the Obama 
administration, over $3 billion went to Diplomatic Security. 
But once President Trump came in, I see it went down to $2.1 
billion and fiscal year 2019 down to $1.6 billion.
    So the budget or the money for Diplomatic Security has gone 
down about 45 percent from the Obama administration. So where 
is the concern now on the side of this administration about 
Diplomatic Security?
    Secretary Pompeo. Diplomatic Security is not about dollars 
expended. It's about delivering real security. It's about 
getting the right outcomes. It's about having the right people 
in place. It's about being thoughtful about where you put 
people.
    We are going to take risks. We are going to be an 
expeditionary State Department. I think President Trump demands 
it. I think each of you do as well.
    But I will take a back seat to no one with respect to 
caring about and protecting the people that----
    Mr. Meeks. Nor did Hillary Clinton take a back seat about 
diplomatic security in this country.
    Chairman Royce. Okay. [Sounds gavel.] Order.
    Next in the queue is Mr. Dana Rohrabacher or California.
    Mr. Rohrabacher. Mr. Secretary, might I suggest that we 
have more opportunities and I hope that now that you are the 
Secretary to talk to you privately and have discussions like 
this so we wouldn't have to use up time at a hearing and do 
things publically. So I hope that----
    Secretary Pompeo. Mr. Rohrabacher, can I say this? I would 
welcome that with as many of you as I can. My theory on this is 
as many cups of coffee as we can have to have these 
discussions, the more we can work together to achieve 
American----
    Mr. Rohrabacher. Let's have some of those sessions so 
people can get their points across and have a discussion 
because we are limited with time here.
    I am very pleased that we have an administration now and a 
Secretary like yourself who knows that we shouldn't be treating 
enemies like friends. We should be treating enemies like 
enemies and friends like friends, not the other way around, and 
I am afraid that our Government quite often has gotten into 
that pattern.
    I would like to ask--based on that concept, I would hope 
that we are going to be supporting the Kurds. Erdogan has 
become our enemy. He is not our friend and the Kurds are the 
people who need our help.
    I hope that we are going to have a relationship with India 
and Japan and accelerate that relationship because that is 
pivotal. They are friends that are pivotal to helping us defeat 
our enemies.
    I understand that the budget request has no increase for 
Pakistan. I don't see any reason whatsoever to give the 
Government of Pakistan any money in terms of our foreign aid 
until Dr. Afridi, the man who helped us bring justice to Osama 
bin Laden, the man who slaughtered 3,000 Americans and our 
Pakistani friends have proven their friendship by keeping him 
in a dungeon.
    In Afghanistan, we have a great friend, a man--if anybody's 
seen ``12 Strong''--helped defeat the Taliban and Dr.--and 
right now, he is the vice--supposedly the vice president, 
General Dostum--he is in virtual exile now and he's--there's 
been assassination attempts. I hope that we make it very clear 
that General Dostum is the guy who can defeat the Taliban. He's 
done it before, and we need to stick by him.
    Third, again, Egypt--in Egypt now we have a government that 
is against radical Islamic terrorists and in fact they replaced 
a government that was pro-Muslim Brotherhood.
    But we have policies that make it more difficult for Egypt 
to purchase American weapons than when Egypt was under the 
President who was part of the Muslim Brotherhood.
    This is ridiculous. I hope that that would get your 
attention.
    Finally, Iran--congratulations on taking hold of this 
situation and stepping forward with positive leadership as you 
have. Let me just note, when it comes back to treating your 
enemies as enemies and your friends as friends, we have a lot 
of friends in Iran.
    People always mistake, and I keep reminding our folks here, 
the Iranian mullah regime--that's the enemy. The people of Iran 
are our friends.
    These folks over here in their yellow jackets, these are 
Iranians who love freedom and we need to make sure that we work 
with the Baloch, with the Kurds, with the Azaris, and others, 
and the Persians who are pro-freedom in Iran and be proactive 
like Ronald Reagan was when he ended the Cold War and we can 
defeat the mullah regime without having a military operation by 
helping these people who believe in freedom.
    And now I've given you a minute to reply. [Laughter.]
    Secretary Pompeo. If I might, I will try and tackle two of 
those. I will tackle Pakistan and then the Kurds, if that's 
okay.
    So with respect to Pakistan, we released far fewer funds in 
2018 than in the year prior. The remainder of the funds 
available are under review. My guess is that that number will 
be smaller still.
    I worked diligently on the issue of Dr. Afridi in my 
previous role, unsuccessfully. Please be aware that it's in my 
heart and I know it's important and we can do that. We can 
achieve that outcome.
    Mr. Rohrabacher. When it's getting worse in Pakistan--if 
people in Karachi and the Sindhs and the others, they are now 
facing these--you know, people who are killing their leaders or 
killing their people who believe in certain things that are 
different than the radical Islamic philosophy of some of the 
people in the Pakistani Government.
    Secretary Pompeo. Our State Department officials are being 
treated badly as well. The folks working in the Embassies and 
in the consulates and other places are not being treated well 
by the Pakistani Government either--a real problem that we need 
to take the measure of also.
    If it's okay, I will get back to you on the Kurds in a 
written note.
    Mr. Rohrabacher. All right, and as I say, Mr. Secretary, 
looking forward to some private sessions where we can all 
discuss things.
    Secretary Pompeo. Thank you.
    Chairman Royce. Albio Sires of New Jersey.
    Mr. Sires. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being here.
    Mr. Secretary, going to the Western Hemisphere, as I look 
at it, being a part of the Subcommittee on the Western 
Hemisphere, I look at Venezuela, which basically has become a 
satellite of Cuba with Cuba having 30,000 people or more in 
Venezuela running just about everything, from security to all 
the other things that run somehow in Venezuela.
    The other concern that I have is, obviously, Nicaragua--I 
am glad that the administration is finally speaking up on 
Nicaragua. I think we definitely have to support those student 
and the people that are on the streets.
    But one of the things that always concerns me is as part of 
the Ayatollah's efforts to export the revolution, it seems that 
we have been building cultural centers in some of these Latin 
American countries.
    Are we really monitoring to see how much influence they 
have and how many they're opening? I mean, they started out 
with 10. Now they're about 100.
    I am concerned about the security. Can you----
    Secretary Pompeo. I don't know the answer to how well or 
how frequently we are monitoring that. I will get you an 
answer.
    Mr. Sires. Okay, because I think----
    Secretary Pompeo. I am aware of this issue but I don't know 
what monitoring is taking place.
    Mr. Sires. Okay. Going now to Cyprus, are we considering to 
lifting the arms embargo in Cyprus so we can sell them arms?
    What's happening in Cyprus is Turkey keeps sending people, 
more and more on their side, and this is an issue that the 
Cyprus people feel that they have to have in order to protect 
themselves, and we have an arms embargo.
    I know that you only just got to the State Department but 
these are questions that I think that we should look into.
    Secretary Pompeo. I will mention this. I don't want to 
address that issue in particular but, rather, talk about issues 
in the Eastern Med, more broadly.
    I met with the Greek Foreign Minister on Monday of this 
week. There is a great deal of work we have--increasing 
threats--that America has enormous interests that we have to 
figure out precisely how to deal with each of them. It's a 
complex place.
    Congressman Rohrabacher mentioned Turkey. Maybe a couple 
others have as well. We have a NATO ally, that I will meet with 
their Foreign Minister early next week to try and plot a path 
forward together with them in Syria but who is proving 
incredibly difficult.
    Mr. Sires. And I hope that you consider not giving them the 
F-35s in the future. It seems that we give and give and give, 
and we get slapped in the face when we need them.
    I represent the largest Coptic Christian community in New 
Jersey and I am always very concerned about the security.
    I hope that the State Department makes an effort to really 
concentrate on the safety of the Coptic Christians in Egypt. It 
is important there were over 16 million Coptic Christians in 
Egypt and they were under assault day in and day out.
    So if we can put more pressure on the Government of Egypt 
to give them more protection, that would be good for all those 
people that are under such pressure.
    Secretary Pompeo. Thank you.
    I think the administration has done a reasonably good job. 
I think we've made real efforts. I agree with you that there 
remains a great deal of work to do to make sure that they have 
the protections they need to practice their religion in Egypt.
    Mr. Sires. And going back--I have about a minute--and going 
back to the Iran question, they seem to be building more and 
more their forces in Syria.
    How closely are we monitoring this? It seems that they're 
getting ready for something.
    Secretary Pompeo. So I actually am very familiar with this 
issue--the Iranian efforts in Syria. Their forces have expanded 
modestly over this past 24 months. But they have become more 
willing and more capable.
    That is, the weapons that they have moved into Syria have 
become more capable. That is, their capacity to threaten the 
region including Israel has increased over those same 24, even 
36 months now.
    It is a difficult complex environment to respond in. Rest 
assured, we are working closely with our European partners, our 
Israeli, our Arab partners.
    We are well aware of the threat from Iran and we are 
working to develop details under the strategy I laid out on 
Monday about how to respond to that.
    Mr. Sires. And how is the investigation on what happened in 
Cuba going with our diplomats?
    Secretary Pompeo. So the Accountability Review Board, I am 
told, will have a report to me by the middle of next week.
    And if I may, you're speaking about the incidents--the 
incidents in Havana?
    Mr. Sires. Yes.
    Secretary Pompeo. If I might add here for the benefit of 
those who saw the news last night, we had an incident in 
Guangzhou that the medical indications are very similar and 
entirely consistent with the medical indications that have 
taken place to Americans working in Cuba.
    One incident--we announced it to the workforce while we 
slept here last night. We have medical teams that are moving to 
be on the ground there. We are working to figure out what took 
place both in Havana and now in China as well.
    We've asked the Chinese for their assistance in doing that 
and they have committed to honoring their commitments under the 
Vienna Convention to keep American Foreign Service officers 
safe.
    Mr. Sires. Thank you.
    Chairman Royce. We appreciate very much your department 
keeping us in the loop on this as this proceeds.
    We go to Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman.
    And Mr. Secretary, as a founding member of the 
Congressional Taiwan Caucus, I would like to focus first on one 
of our key allies in what can be, obviously, a very dangerous 
world--the nation of Taiwan--and I say nation intentionally.
    It's not a faux pas. Taiwan has been a de facto independent 
country for more than half a century now. They, of course, have 
to put up with China's bullying on an ongoing basis.
    The State Department had a self-imposed policy that 
prevented top Taiwanese officials--the President, Vice 
President, Foreign Minister, and Defense Minister--from coming 
to the United States, including to our Nation's capital here, 
Washington, DC.
    They could transit through, say, Los Angeles or San 
Francisco as they headed to South America, for example, but 
that was it.
    And top U.S. officials couldn't travel to Taiwan. That 
policy was disrespectful and counterproductive, in my view. 
Recently, the House unanimously passed H.R. 535 and I would 
like to thank my Democratic colleague, Mr. Brad Sherman, as 
well as Chairman Royce and others for joining me as principal 
sponsors in what passed the House unanimously and passed the 
Senate unanimously, and then President Trump--God bless him--
signed it into law.
    I would note that the resolution not only allows high-level 
visits but encourages them.
    Mr. Secretary, I would like to encourage you and the rest 
of the administration to take advantage of this, and I don't 
want to put you on the spot or anything but I would hope that 
at some point in the not too distant future, President Tsai of 
Taiwan herself could come and address a joint session of 
Congress or visit President Trump in the White House.
    So, that being said, Mr. Secretary, could you comment on 
the Taiwan Travel Act and how you would see it working in real 
time?
    Secretary Pompeo. In my previous role, I was part of the 
discussions around that, trying to at least understand American 
national security implications for it.
    The administration has had many discussions. We understand 
its implications, not only its urgings but the direction of 
travel that was required by that, and you should have great 
confidence that we will continue to abide by that.
    My recollection is there was an Assistant Secretary that 
travelled there just before my time or maybe it was a couple 
months before my time.
    Mr. Chabot. Thank you very much, and we are sending a 
letter I believe today to John Bolton to encourage him perhaps 
to go as well. So my guess is he would probably like to do 
that.
    So thank you very much.
    The next thing I would like to mention, we had a hearing 
last week. I've introduced legislation a number of times. As 
you know, gas prices have gone up to $3 a gallon in Cincinnati 
and other places. They're higher here in DC. But they're 
hurting a whole lot of people.
    And it was called NOPEC--I would introduced it with John 
Conyers in the past. We'd passed it in the House. They passed 
it in the Senate. But it wasn't identical. There would be 
climate change stuff put in in the Senate. So for whatever 
reason we didn't get it across the finish line.
    It's my understanding that President Trump likes the idea. 
In essence, what it does is it would allow the attorney general 
to file a lawsuit for anti-competitive violations, basically, 
which would be in violation of anti-trust law--the Sherman 
Act--and I would encourage you to take a look at that. The 
legislation, hopefully, will be passed here in the House in 
time in the near future and those OPEC companies who work with 
Russia and others are artificially keeping production down, 
which drives the price up. So if you would take a look at that 
I would greatly appreciate it.
    Secretary Pompeo. I would be happy to.
    Mr. Chabot. Thank you.
    Secretary Pompeo. And I also hope the good oil and gas 
people of your great state would get after it as well.
    Mr. Chabot. I totally agree with you.
    And then one final thing I would like to do, and I would 
like to commend my colleague from Virginia, Mr. Connolly, for 
not letting the world forget about Crimea, which too often, I 
think, they have.
    I think Russia's invasion and criminal annexation of part 
of Ukraine--Crimea--is going uncommented on by the rest of the 
world too often.
    So if you could elevate that in any way I would greatly 
appreciate it. I don't know if in the little time you have left 
if you could comment on that.
    Secretary Pompeo. I appreciate the need to elevate that. 
The last trip I took in my previous world was actually to the 
Donbass to see the challenges that are presented to Ukraine and 
its people there.
    This is a very, very serious matter. The Russians annexed 
one-fifth of that country. We should never forget that that's 
the case.
    Mr. Chabot. Thank you very much.
    Chairman Royce. Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. Thanks for your service to our 
country and thanks for being with us today.
    As my colleagues know, I make the same request of every 
official who comes before this committee. You have already had 
a chance to speak to this and you and I have had many 
conversations over the years about Bob Levinson, the longest 
held American hostage, and all the other Americans who are held 
in Iran. I appreciate the commitment that you have made here 
today to focus on bringing them home and we are proud to be 
joined today by Bob's youngest son, Dan, who's sitting with us 
here.
    Because there are now no longer any regular direct channel 
talks with Iran, where the American hostages were brought up on 
then sidelines, I just would ask that, at a minimum here, for 
you to commit to continuing to communicate with the Levinson 
family to keep them apprised of the extent of your efforts to 
help bring him home.
    Secretary Pompeo. Of course.
    Mr. Deutch. I appreciate that.
    Mr. Secretary, you said in your testimony that we won't 
tolerate Russian interference in the 2018 elections and we have 
to take countermeasures in response to an effort to do so.
    I just wanted to get your quick response to something. 
Yesterday, particularly given your previous position--in 
January 2017, ODNI found the Russian Government favored the 
Trump campaign over Hillary Clinton and that Putin personally 
ordered to influence the campaign to undermine public faith in 
the American democratic process.
    Yesterday, our Homeland Security Secretary said that she 
didn't believe that she'd seen that conclusion that the 
specific intent was to help President Trump win.
    I just wanted to confirm that you share the view of the 
intelligence community and the conclusion that they reached in 
January 2017.
    Secretary Pompeo. Yes. I haven't seen anything that would 
dissuade me from believing it's right. It's worth noting, 
however, that that particular judgment that was made was the 
least confirmed--that is, there was the least support for that 
and the intelligence committee report make that clear as well.
    Mr. Deutch. So and just confirming that it's--it was still 
a conclusion reached by the intelligence community.
    Secretary Pompeo. Yes, sir.
    Mr. Deutch. Also, again, not tolerating Russian 
interference in 2018 also means, I think, that we need to fully 
understand everything that happened in 2016.
    To that end, I just wanted to ask whether you support 
allowing the Mueller investigation to play out so that we can 
gather all of the necessary information to make conclusions 
about what happened in 2016 in order to safeguard, as you point 
out in your testimony, and prevent any Russian interference in 
the 2018 elections.
    Secretary Pompeo. I am not going to comment on any of the 
ongoing investigations. As I said in my confirmation hearing, I 
was interviewed by Mr. Mueller's team. So I've been part of it. 
I was part of it in my role as Director of the CIA, providing 
information to committees here in the House, committees in the 
Senate as well.
    I am simply going to make no comments about any of the 
ongoing investigations.
    Mr. Deutch. On Iran, I want to just go back to the 
President's decision to withdraw from the JCPOA and where 
things stood the moment before that happened and just ask 
whether--as your sense of how things can go forward.
    At that moment, there were ongoing discussions--
negotiations with our European allies about addressing the 
shortfalls in the JCPOA, specifically, the inspections regime, 
the sunsets, and the ballistic missiles, and I would add human 
rights to that.
    And the understanding was by a lot of us that if we could 
reach some agreement on those issues to strengthen the JCPOA 
and address those shortfalls that that would have been 
sufficient for the administration to remain in the deal.
    There is this 180-day period now before the sanctions are 
fully implemented after the President's decision. Are those 
discussions continuing with our allies?
    Is there any chance, if our allies were to agree to the 
demands of the administration to strengthen the JCPOA and there 
were an opportunity to achieve that with them, would that have 
an impact on what we do over the coming months following the 
President's announcement to withdraw from the JCPOA?
    Secretary Pompeo. So we will certainly continue to work 
with our European partners. Indeed, the German Foreign Minister 
will be here on Thursday--tomorrow--or maybe it's even this 
afternoon when he will arrive.
    I was part of those negotiations. While I don't want to go 
into the details, I can say this. We worked diligently during 
my 2 weeks as Secretary of State to try and bridge that gap 
and, ultimately, the three European countries would not sign up 
for that.
    It's worth noting--so there were an extended period that 
negotiations took place, some of it--some of which predated my 
time. It's worth noting that during the entire duration of the 
JCPOA, in spite of their attested willingness to put additional 
sanctions in place, no sanctions were put in place.
    So everyone--there was this discussion about how there were 
these--we can still continue with non-nuclear sanctions. The 
actual willingness to do that, to actually engage and say we 
are going to sanction Iranian missile conduct, for example, 
which would, if put in place properly, have required European 
businesses not to be in Iran--they're still engaged in this 
missile activity--I think we can all agree it didn't happen.
    Mr. Deutch. And so are we prepared to fully impose 
secondary sanctions on our allies?
    Chairman Royce. The gentleman's time is----
    Secretary Pompeo. The answer is the sanctions are back in 
place today with a 90-day and a 180-day wind down period for 
different components.
    Chairman Royce. Let me say, I appreciate our Mr. Ted 
Deutch's continued focus on Bob Levinson and his fate. Let me 
also add that I would add this with extreme caution, Mr. 
Secretary. The U.S. permanent resident, Nizar Zakka, is 
reported to have disappeared from prison in Iran and I hope the 
administration is working swiftly to locate him and ensure his 
well-being.
    The reason I raise the point is there is reports not only 
that he was in poor health but also reports that he had been 
tortured. And so thank you for your engagement on this.
    Secretary Pompeo. Yes, sir. We are aware of those reports 
as well.
    Chairman Royce. Thank you.
    We go to Mr. Joe Wilson of South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman.
    And Mr. Secretary, thank you for being here today. I had 
the extraordinary opportunity to lead a delegation for the 
opening of the Embassy in Jerusalem.
    What a fabulous positive celebration this was, and I was 
really grateful for the leadership of President Trump, for your 
leadership, Ambassador John Bolton, and, of course, the 
extraordinary Ambassador to the U.N., Ambassador Nikki Haley.
    In working with Prime Minister Benjamin Netanyahu, I 
believe this will help promote the peace process in the Middle 
East. So thank you for your success.
    Additionally, the question would be the results of the most 
recent elections in Lebanon change what's the status of U.S. 
policy? Do we need to make changes on how to provide our 
economic and security assistance to be more effective to 
counter Hezbollah and Iranian influence, and what do you see as 
the most effective tool pursuant to U.N. Security Council 
sanctions that the United States can promote to enforce the 
disarmament of Hezbollah which, today, has 150,000 missiles 
directed at Israeli families?
    Secretary Pompeo. So I think there were three questions 
there. I will start with the last one with respect to Lebanese 
Hezbollah.
    So we not only now have them as a problem in Lebanon, we 
have them as a problem in Syria as well--Iranian-funded, 
Iranian-fueled. Part of our Iran strategy is aimed, clearly, at 
reducing their capacity to create havoc and conduct terror 
operations around the world.
    Second, you asked about the election. Certainly, changes, 
but ultimately it's our assessment at this point that the 
overall balance of power won't be materially changed as an 
outcome of that.
    That's good and bad. The existing balance of power is not a 
good one in its own right and so there are real challenges 
about how America can introduce its influence and get Lebanon 
to move in the direction of that great nation.
    To date, we've largely relied on two places including the 
Lebanese Armed Forces to help us achieve the security element 
of our efforts there and we need to review each of those to 
make sure that we are using American taxpayers' dollars right 
and supporting the groups that can most likely achieve our 
outcome there.
    Mr. Wilson. I am also grateful that the administration is 
providing additional funds for European Deterrence Initiative 
to provide for military NATO troops and Estonia, Latvia, 
Lithuania, American troops in Poland.
    To me, this is so important. But the challenge that you 
have is that only 15 of the 29 NATO allies have said that they 
would reach the 2 percent minimum by 2024.
    What can we do to encourage our allies to better defend 
themselves to promote peace through strength?
    Secretary Pompeo. President Trump should be credited with 
making real progress there. That is, there are more countries 
today meeting the 2 percent commitment. There's a corollary 
commitment of 20 percent for equipment as well--more countries 
achieving that as well.
    I was with Jens Stoltenberg this past week. He's committed 
to putting pressure on each of them to do so. There's a NATO 
summit in July that the President will attend, and I hope that 
two things will take place--one, that every country will show 
up with a plan, at least, to get to 2 percent. Some of the 
countries, including Germany, have the financial wherewithal to 
do so and have simply chosen not to; and second, I hope that 
the countries that have plans will move their date closer--that 
they will get to their 2 percent target in a more timely 
fashion.
    Mr. Wilson. And I am really grateful, a rare example but 
it's true that we worked together with Gerry Connolly and Steve 
Chabot, and that is that we are concerned about Russian 
aggression, beginning in Moldova. Then it was the Republic of 
Georgia, and then 10,000 were killed in Ukraine.
    What more can we do to work with our allies to provide 
proper equipment, particularly to the three nations that I 
mentioned, to stop the aggression by the Putin regime?
    Secretary Pompeo. So, Congressman Wilson, I don't know the 
details of the armaments issues with respect to those three 
countries. I am happy to take a look at it.
    I was with the Georgian prime minister. We had the seven 
U.S.-Georgian dialogue hosted at the State Department this 
week. We can keep these issues at the forefront.
    We can make clear with respect to at least Georgia that we 
are working to get their accession to NATO. These are the kinds 
of things that can support the people of those countries in the 
right way.
    We also, in that same neck of the woods, made the decision 
last year to provide defensive weapons systems to the 
Ukrainians--weapons systems that they have now used--and there 
is much work that remains--I concur, this is not partisan--much 
work that remains to promote those former Soviet entities who 
are on a path toward joining the Western world.
    Mr. Wilson. And I've seen the success of Bulgaria and 
Romania, and now Georgia. Thank you.
    Chairman Royce. We go now to Mr. Bill Keating of 
Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    Good morning, Mr. Secretary. Three things--first, the 
President's reversal on the telecom giant from China, ZTE--you 
know, in 2012, the Permanent Select Committee on Intelligence 
of the House said that ``This company could undermine core U.S. 
national security interests.''
    Even last week, your nominee to the Counterterrorism Center 
said that they present a serious security risk to the United 
States. Even Senator Rubio said it'd be crazy to go back on 
this.
    So it's really not an issue if it presents a security 
question. Yet, the President, by a tweet, took the pressure 
right off just 3 days after getting a loan arrangement that'll 
support the Trump brand and reverse this.
    Now, either last night or this morning he said, well, maybe 
it could be dealt with with a fine or changing the principles 
of the company, which you know are run by the Chinese 
Government and influenced by the Chinese Government.
    Number one, should that be reversed? Should that ban be 
reversed and, number two, should the President really divest 
himself of these business interests?
    Now, second quick question is on the President's phone. 
There have been reports that his cell phone isn't equipped with 
sophisticated security devices and it exposes him to hacking 
and surveillance in that regard.
    You wrote, Mr. Secretary, a couple of years ago, dealing 
with the former Secretary described for the letter and spirit 
of the law in her handling of classified information is not a 
political issue--it's a national security issue that puts 
American interests and American lives in danger.
    Second question, will you advise the President to change 
his phone and make it more secure in that respect?
    And finally, if you could, you said just a few minutes ago 
that security is about being thoughtful for where you put 
people. So I would like your opinion on the fact that in all 
the people in the administration and all the qualified people 
in the United States of America, the President has put the 
chief negotiator for Middle East peace in the hands of his son-
in-law, Jared Kushner, who is limited in his knowledge of this 
because he's been denied security clearance necessary, really, 
to have a full grasp of that issue.
    His temporary clearance was removed due to apparent 
conflicts of interest and a very large number of discrepancies 
on his SF-86 form.
    So on those three questions, if you could, Mr. Secretary, 
please respond.
    Secretary Pompeo. Sure. Let me take a swing at all three of 
them.
    Mr. Keating. Thank you.
    Secretary Pompeo. I will try to do them in the sequence you 
provided them.
    With respect to ZTE, you note that this threat has been 
known since 2012. You should note nothing was done in what now 
amounts to almost 6 years.
    This administration is going to do something. We are still 
working on the appropriate response and how to address it. But 
it's worth noting that for 6 years, mostly under the previous 
administration, nothing was done.
    Mr. Keating. Mr. Secretary, but just a quick comment----
    Secretary Pompeo. Sure.
    Mr. Keating [continuing]. That doesn't make it right.
    Secretary Pompeo. No, sir. It doesn't.
    Mr. Keating. Either there is danger or there's not. The 
President has been in office for a year--over a year now and 
nothing was done, evidently.
    Secretary Pompeo. I agree.
    Mr. Keating. So time to do it, right?
    Secretary Pompeo. I agree. I agree. We need to make sure 
that America is secure from threats to all. There are 
multiples--ZTE is one amongst many of these same types of 
threats, and I look forward to working this. This seems to me a 
bipartisan issue.
    Mr. Keating. So it still should be banned?
    Secretary Pompeo. We are going to get this right. We are 
going to reduce the risk from ZTE to America. It's still under 
review what's taking place. I've been part of some of the 
discussions, although not all of them.
    But I understand, at least as of yesterday afternoon, no 
final resolution had been reached.
    I will leave to others the President's phone. I won't walk 
away a single bit from what I said previously. Every government 
elected official has the responsibility to comply with----
    Mr. Keating. Including the President, Mr. Secretary?
    Secretary Pompeo. Every government official----
    Mr. Keating. So who would tell him that, in your 
organization?
    Secretary Pompeo. Congressman, I don't have any comment on 
that. We all have a responsibility.
    Mr. Keating. But excuse me--if you know it and it's true--
if it is true, would you feel compelled to say, Mr. President, 
you got to change your phone--it's a security risk? Wouldn't 
you at least do that for America?
    Secretary Pompeo. [Laughter.] I will tell you this. I will 
tell you this.
    Mr. Keating. You can't do that for America? Come on now.
    Secretary Pompeo. We are both great patriots. I think we 
share that. I am going to do everything I can----
    Mr. Keating. You wouldn't tell the President if he had an 
unsecure phone, hey, Mr. President, you got to get a new phone? 
You wouldn't tell him that? Why wouldn't you tell him?
    Secretary Pompeo. I have managed for 16 months not to talk 
about conversations I've had with the President. I do not----
    Mr. Keating. Well, have you had that conversation?
    Secretary Pompeo. I do not intend to violate that principle 
today with respect to conversations between myself and the 
President.
    Mr. Keating. Well, I am going to take that, if you will, 
that you have never told the President, hey, you better get a 
new phone that's secure.
    Secretary Pompeo. I can't account for how you will take it. 
I can only tell you that----
    Mr. Keating. You can't account for how he'll take it?
    Secretary Pompeo. I can't account for how----
    Mr. Keating. Who can?
    Secretary Pompeo. You shouldn't construe the absence of a 
comment from me one way or the other. Know this--every time I 
see a security issue, I try to do my best to face it, whether 
it's something that I got wrong or someone else made an error 
as well.
    Chairman Royce. Mr. Mike McCaul of Texas.
    Mr. McCaul. Thank you, Mr. Chairman.
    And Secretary, it's great to call you Secretary. It's great 
to see a friend and former colleague in the position that you 
are in, having travelled with you to the Middle East and 
Northern Africa.
    I've seen you and your talent as a diplomat and we are just 
so proud of you in the House.
    With respect to the allegations about the Diplomatic 
Security corps, I would just respond that nobody knows that 
issue better than you, having served on the Benghazi Commission 
where our Ambassador was killed in the previous administration.
    I sort of think you appreciate that issue probably more 
than anyone. And so with that, I would like to move on to Iran. 
When you and I talked about the JCPOA when we were in the 
Congress together, we had concerns about the ballistic missile 
capability.
    We had concerns about the inspections not being anytime 
anywhere, no access to military installations, and the $150 
billion that has gone into terrorism that now we see as the 
Shi'a Crescent, as Netanyahu calls it, into Iraq, Syria, in 
Lebanon, and now Yemen.
    I know you have these E-3 negotiations that apparently got 
pretty close to an agreement.
    I applaud the efforts to move forward with more leverage on 
Iran by lifting the sanctions in a 90- to 180-day time frame.
    Can you tell us about what the status of those negotiations 
are and if there is any path forward to come forward with a 
deal with our European allies, the Saudis, and Iran?
    Secretary Pompeo. So we are not very far along. We are only 
a handful of days post the President's decision to withdraw 
from the JCPOA. But a number of discussions have taken place 
below the Foreign Minister level.
    I am planning for, depending on, frankly, my schedule, 
sometime in earlier June or mid-June to gather up with a number 
of partners including the E-3 partners to plan our way forward.
    There is near perfect overlap in our values and interests 
on this. There is no dispute about the Iranian missile program, 
about its malign behavior, about the assassinations that were 
spoken about earlier.
    Everyone agrees to the problem set. We need to find a path 
forward together to address it, and economic sanctions get a 
lot of attention. They're important. They're an important tool.
    But there's a great deal more to that, some of which we can 
talk about in this setting, some of which we cannot, each of 
which needs to be delivered globally.
    So when you think about our allies, it's not just the three 
Europeans. We have Arab countries and their back yard. We have 
the airport in Riyadh that has missiles landing in it.
    There are Americans going to land in the Riyadh airport 
within the next 12 hours. These are serious issues. We are 
simply asking Iran to be a normal country. Some said my remarks 
were fantasy. I hope it's not killing folks. Doesn't seem like 
a fantasy.
    We demand it of every country in the world. We certainly 
ought to be able to achieve that and get our partners to agree 
to help Iran be----
    Mr. McCaul. Well, I think the President put the right man 
in the job to get that done. We have every faith and confidence 
in you.
    North Korea--you're one of the few diplomats, if not the 
only American diplomat, to have met with Kim Jong-un, which is 
an incredible experience, I am sure.
    We know their track record. We have constantly looked at 
sanctions to get to the negotiation table and they have 
consistently violated--they have consistently--they got out of 
the nuclear proliferation treaty--consistently pulled the rug 
out from under us.
    So what is your sense of the man himself, having that 
opportunity to meet with him, and what is your sense of any 
optimism that we can achieve a true negotiation that's good for 
the United States with him?
    Secretary Pompeo. So it is always with the deep knowledge 
of the history of the relationship and North Koreans' 
unwillingness to honor their commitment that, one, begins any 
discussion on this--one, eyes wide open that we have been 
fooled before and can't permit that to happen again.
    Having said that, the discussions I've had with them, he 
knows the file. He doesn't use notes. He is speaking. We have 
real conversations through a translator, obviously. We would 
have hard conversations about what America was prepared to do 
and how we might be prepared to do it--our demands, the things 
we need from North Korea in order to achieve that--real 
conversations, not stilted talking points, as we've had in the 
past with the North Koreans.
    He's from a different generation and at a different time, 
and it's my hope that when he and President Trump get a chance 
to be together that we can get the North Koreans to make the 
strategic shift about how best to serve the country--that the 
nuclear weapons program isn't in fact the thing that keeps the 
regime in power but the thing that prevents the regime from 
being in a place it wants to be with economic success.
    Mr. McCaul. Thank you, sir.
    Chairman Royce. We go to David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Mr. Secretary, welcome to the committee. I have four 
questions that really require a yes or no answer before I get 
to my other questions.
    Will you, as Secretary of State, do what so many other 
Secretaries have not and recognize the genocide perpetrated by 
the Ottoman Empire against its Armenian citizens during World 
War I? Yes or no.
    Secretary Pompeo. I can't answer that. I don't know the 
answer. I will review the issue.
    Mr. Cicilline. Okay.
    You strongly criticized the Obama administration for not 
including issues like human rights in the nuclear deal with 
Iran.
    Do you have a commitment from the Kim regime in North 
Korea, the most brutal dictatorship in the world, to take steps 
to alleviate the human suffering of their own people, including 
opening civil and political rights as part of any negotiated 
deal?
    Secretary Pompeo. The issue was raised directly between me 
and Chairman Kim and it will be part of the discussions as we 
move forward.
    Mr. Cicilline. Will it be part of the deal? Do you have a 
commitment from the Kim regime?
    Secretary Pompeo. We have broad outlines of what it is that 
each nation is prepared to do.
    Mr. Cicilline. Thank you, Mr. Secretary.
    You said in response to written questions for the record 
during your Senate confirmation hearing that you would appoint 
a new special envoy for the human rights of LGBTI persons at 
the State Department.
    That special envoy position has been vacant for some time. 
Will you expeditiously appoint someone fill that post?
    Secretary Pompeo. Yes.
    Mr. Cicilline. And can you give us a time line?
    Secretary Pompeo. No.
    Mr. Cicilline. Okay.
    Secretary Pompeo. But just know, I have a couple dozen 
posts that are of similar importance, each of which we are 
working through and developing lists. Yes.
    Mr. Cicilline. Thank you.
    You have talked a lot about supporting freedoms in the 
Middle East region. Have you raised your concerns with the 
Government of Saudi Arabia about the recent arrests of 
activists, particularly, women activists?
    Secretary Pompeo. I've spoken with that with the leadership 
of Saudi Arabia, although I haven't had a chance to speak to 
them lately on----
    Mr. Cicilline. I hope you will.
    Next, Mr. Secretary, I want to build on Mr. Keating's 
question about ZTE. Do you believe it's appropriate for the 
President's business organizations to benefit from Chinese 
Government loans and financial incentives while the 
administration considers official matters related to the 
Chinese Government?
    Secretary Pompeo. I will leave that to others to comment 
on.
    Mr. Cicilline. Do you think it's appropriate?
    Secretary Pompeo. Yes, I am going to leave that to others.
    Mr. Cicilline. Do you have an opinion as to whether that is 
appropriate?
    Secretary Pompeo. Yes. That's, I think, six levels of 
hypothetical that I don't know the facts----
    Mr. Cicilline. Well, no, Mr. Secretary, with due respect, 
it's not hypothetical.
    Secretary Pompeo. No, it is.
    Mr. Cicilline. The President reversed his decision and 
received a financial benefit. If in fact the President doesn't 
divest himself of his business interests, how will you ensure 
that this body, the Congress of the United States, that you are 
not engaging on matters of foreign policy and national 
security, where the President's interest is really the bottom 
line, in your mind, rather than the interests of the American 
people?
    Secretary Pompeo. Well, first of all, I can assure that 
that's not true.
    Second, I can prove now that it was a hypothetical. You 
said that the President had changed his position. It's still 
under review. We are still working our way through it.
    Mr. Cicilline. Mr. Secretary, if the President's business 
interests remain in place how will you assure the American 
people and this Congress that the decisions that you make on 
matters of foreign policy will be dictated by the best 
interests of the American people and not the financial benefits 
to the Trump organization or President Trump?
    Secretary Pompeo. If I guess--I guess----
    Mr. Cicilline. When you don't even have an opinion as to 
whether or not it's a good thing or a bad thing.
    Secretary Pompeo. I guess----
    Mr. Cicilline. You wouldn't even render an opinion as to 
whether or not you think it's appropriate for the President's 
business organization to benefit from financial loans and 
incentives from a government that you're negotiating with?
    Secretary Pompeo. I am confident that the President will 
comply with the ethics rules that are in place. Right. So, 
yes----
    Mr. Cicilline. Mr. Secretary, that's a very disappointing 
answer, with all due respect.
    Secretary Pompeo. I did--I did comment----
    Mr. Cicilline. I will go to my next question. In your 
speech on Iran this week, you outlined 12 demands for the 
Iranian Government now that President Trump has abandoned the 
JCPOA.
    And while I agree with all the goals that you laid out in 
your list, I have to say it was more like a letter to Santa 
Claus than a policy document.
    It's nice that you have 12 things that you want the 
Iranians to do. But that is far different from having the 
negotiating ability, the skill, and the coalition to support 
those efforts.
    And from what I've seen so far, this administration has 
none of these things. In fact, this administration has been in 
power for a year and a half and nothing in the JCPOA prevented 
the administration from cracking down on Iran's malign 
activities in the region and they've done very little.
    So why will it be different now how you translate this very 
lovely wish list into actual policy?
    Secretary Pompeo. May I actually answer this question?
    Mr. Cicilline. Yes, please.
    Secretary Pompeo. Thank you.
    In the almost 3 years of the JCPOA, the Iranians marched 
across the Middle East. They conducted heinous activities. I 
don't know which of the 12 asks you would like me to get rid 
of. Do you have what you'd like me to drop from the list?
    Mr. Cicilline. No. No. Mr. Secretary, I am asking how do 
you take this list? Your administration has been in office for 
15 months. They have done nothing to hold Iran accountable on 
any of this malign activity.
    What I am asking you is how you convert this wish list 
which, you know, a terrific list--I agree with its contents--
into actual policy--how you make those things happen? What's 
the strategy?
    Secretary Pompeo. So I laid that as well. It took me about 
13 minutes at the Heritage Foundation to lay it out. I am happy 
to deliver that to you in the 5 seconds I have remaining.
    You should know we are committed to developing a diplomatic 
solution that gets there.
    Mr. Cicilline. I thank the chairman will allow you to 
answer the question if you'd like to share the way that you 
expect to make that actual policy. I think it's----
    Chairman Royce. We go to Mr. Tom Marino of Pennsylvania.
    Mr. Marino. Thank you.
    Welcome, Mr. Secretary, and congratulations.
    Secretary Pompeo. Thank you, sir.
    Mr. Marino. I will get right to the point. Is there an 
aggressive plan to punish China and Mexico for flooding into 
the United States the extremely deadly drug fentanyl?
    Secretary Pompeo. Yes.
    Mr. Marino. Thank you. I yield back.
    Chairman Royce. Mr. Ami Bera of California.
    Mr. Bera. Thank you. Caught me a little bit off guard 
there.
    So first off, thank you, Mr. Secretary. In your opening 
comments you talked about how the State Department workforce is 
its best asset, and I couldn't agree more.
    And I think it's important for all of us to recognize the 
incredible work that that workforce does every day representing 
the United States.
    I am going to turn my focus of my questions to global 
health. I am a physician by training. Public health has been 
something I've done for a long time and, obviously, we know 
that there is an outbreak of Ebola in the DRC right now and we 
obviously have some concerns.
    My concerns are whether the administration is placing the 
right amount of priority on global health security and 
preparedness and here's why I have that concern.
    If we think about the 2014 Ebola outbreak and the response 
and the lessons learned from that outbreak, there were a few 
things.
    Part of the delayed response was the lack of funding that 
was available to quickly respond, and as a physician and global 
health expert, it is incredibly important to get ahead of these 
outbreaks very quickly to contain them.
    So I am grateful for the $8 million that's been allocated 
to help address this response but also concerned about--you 
know, we spent about $5 billion or we appropriated $5 billion 
in that 2014 response.
    About $1 billion was left over that we allocated to USAID 
and CDC to work in 49 countries to help build better 
infrastructure there, better disease surveillance, et cetera.
    In the current budget allocation or ask the administration 
is talking about pulling funding from 39 of those 49 countries.
    I think that would be a mistake. I also know in the current 
rescissions proposal the administration seeks to pull back $252 
million in residual Ebola funding. That also would be a 
mistake, particularly given the outbreak that we see right now, 
and here's why.
    What we know is we built in some flexibility for response 
not just to Ebola but to other outbreaks and, when we had the 
Zika outbreak a year and a half ago, we were able to quickly 
respond, take some of that funding and respond to that Zika 
outbreak and get ahead of it.
    As you go back and, again, that rescission decision may 
have been made before the current Ebola outbreak--I would say, 
you know, let's take that out and I would make that same 
message to the appropriators.
    A third lesson that we learned from that Ebola outbreak was 
the importance of having a command and control structure that 
could take charge, could work across agencies and you had 
someone who, clearly, was in charge.
    I am very worried right now. With kind of the dismantling 
of that--the biosecurity wing of the NSC, the loss of Admiral 
Tim Ziemer, who, clearly, was an expert here, and the loss of 
some of our expertise, with regards to addressing these global 
health and security challenges, I guess my question would be 
with this reorganization in the midst of a potential Ebola 
emergency, would you agree that this is not the right time to 
be doing this reorganization--this would not be the right time 
to be pulling that $252 million and what that org chart would 
look like in terms of biosecurity preparedness?
    Secretary Pompeo. Thank you for your question.
    A very important topic--frankly, gets too little attention, 
I think, from time to time.
    Three thoughts--first, with respect to the Ebola outbreak, 
I believe we have the resources in the short run to do the 
things we need to do and to respond.
    Frankly, it's probably never fast enough, but to respond in 
a way that is important and material and gets ahead of this in 
a way that we weren't able to do before. I think we'll execute 
on that.
    Second, with respect to the rescission package, I will 
certainly review it. I've had conversations even in just these 
3 weeks about that rescission package. There's another as well. 
I've expressed my views internally inside the administration on 
each of those.
    And finally, with respect to the broader structural issues, 
I know what existed before. I am not familiar with where those 
structural decisions are today.
    I will have my team come up and help me out to make sure 
that we have command and control right and not only for this 
immediate issue but as we move forward, thinking about these 
important global health issues as well, sir.
    Mr. Bera. Well great. Mr. Secretary, I would invite you to 
work with us in Congress, those of us that are interested in 
global health security, to make sure we have the right command 
and control structure and the right personnel in place.
    Thank you.
    Chairman Royce. Mr. Paul Cook of California.
    Mr. Cook. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. I think one of the previous 
conversations we had was, I think, in the SCIF talking about 
the Cuban situation with our diplomats and you raised that 
issue today. It's, like, everything goes full circle.
    I wanted to bring up something and it's about the Western 
Hemisphere. You have got a lot on your plate. We got the 
upcoming conference, everything in the Middle East and 
everything else.
    But we had group of us that went down to the conference in 
Peru and the takeaway that we had, I think, all of us--it was 
very, very bipartisan in nature--was that our friends in the 
region feel like the United States have abandoned them in many, 
many ways.
    I think that's part of the reason your predecessor went 
down there, and there's a lot of things going on in the world 
but this is an important year. There's 13 elections.
    You got the upcoming OAS General Assembly, the G-7 Summit, 
the G-20, and they're all very, very nervous about a lot of 
things going on, particularly with the influence of China--
China's money, their economic power, and how they are aligning 
themselves with certain countries.
    And the second, of course, is the Iranian influence. 
Hezbollah in some of the countries, and even some of the 
countries in the Caribbean which, quite frankly, I think are 
aligning themselves with the Maduro government in Venezuela. 
Each one of those small countries had one vote in the OAS, the 
same as the United States.
    What I am looking for is some kind of feedback. I know you 
got a lot on your plate, a lot of balls in the air. But what I 
was trying to convey to you is there's this feeling of a lot of 
the countries in the Western Hemisphere that we, as a 
longstanding partner, have kind of overlooked, ignored our 
allies and I think it's incumbent upon us to reassure them and 
do something on that.
    Can you address that comment?
    Secretary Pompeo. I am not sanguine about their views about 
us having abandoned. I spent a fair amount of time there in my 
previous role. I had a chance to meet many of the leaders in 
those countries.
    In 3 weeks I've met with a number of Foreign Ministers. 
I've participated in the layman group discussions.
    Frankly, I've found there to be a great deal of energy and 
shared vision for how things ought to proceed in Central and 
South America alongside of us.
    And so I am very hopeful. I think there's enormous 
opportunity in that region and I will spend a good deal of my 
time trying to build a team out.
    We have an Assistant Secretary now close to being on board. 
We will--the State Department will have Western Hemisphere at 
the top of its mind across many of these important economic and 
security issues.
    Mr. Cook. Yes, and in line with this, foreign military 
sales. A number of the countries are concerned. Peru is--I 
think they're putting in a plug for the C130-Js--very, very 
interested--and so I, obviously, am very, very concerned before 
in the past we were much more involved in that.
    And as I said, there's a lot of countries, most notably 
China and Iran, that are involved in that. What can we do to 
increase foreign military sales in that region?
    Secretary Pompeo. I, for one, would advocate for working 
closely with them and encouraging them to purchase U.S. 
equipment that fit their country, that was the right tool set 
for them, for themselves and their security interests.
    I hope that we can across the board streamline the State 
Department's process connected with foreign military sales. 
There's work to do.
    Mr. Cook. And I've brought up this subject before in 
regards to NATO. You know, Eastern Europe, they're still 
relying on the parts from Russia.
    Once you go with another country you're going to be 
dependent on that. So I think we've got to look at that whole 
situation. Or once they buy, they're going to be buying there 
for----
    Secretary Pompeo. Yes, sir.
    Mr. Cook [continuing]. The next five generations or 
something.
    Thank you very much. I yield back.
    Secretary Pompeo. Thank you.
    Chairman Royce. Thank you. We go to Lois Frankel of 
Florida.
    Ms. Frankel. Thank you. Welcome.
    Secretary Pompeo. Thank you.
    Ms. Frankel. So I am going to try to be very calm about 
this, but if I really had my way I would be yelling and 
screaming because--and not at you, yet.
    Secretary Pompeo. Soon now. [Laughter.]
    Ms. Frankel. But soon. No.
    Here's what I am concerned about. We've heard a lot in this 
committee about the undeniable link between the treatment of 
women and global peace and security, and also women's 
prosperity and that link.
    And I think a lot of us are very, very concerned what's 
happening to the women of this world by policies of this 
administration--slashing international family planning 
assistance by half, eliminating all assistance to the U.N. 
Population Fund, which also combats sex trafficking and child 
marriage, genital mutilation, leaving the Ambassador-at-Large 
for Global Women's Issues vacant, reinstating and expanding the 
inhuman global gag rule that forces health care providers to 
cut services for women, and which really causes and increase in 
maternal deaths and unwanted pregnancies.
    And I am not talking about funding abortion, all right. We 
can have that argument on a separate date. I am sure you 
probably know this, abortion is not contraception, and I just 
want to give you an example of what's going on in your 
department.
    There were reports every year, I believe it is, 200 
countries on human rights reports are put out. There's a 
section on women.
    Last year, for every country there was a section--women--
there was a section on rape and domestic violence and then 
there was one on sexual harassment and discrimination and 
reproductive rights.
    The new report has completely eliminated reproductive 
rights and substituted--it's almost insane what--I will just 
give you an example.
    Last year's report for El Salvador said that women were 
being imprisoned for miscarriages. That's an example.
    It said Ugandan men were beating their wives for using 
contraception and in the Philippines poor women were being 
denied family planning services.
    Now, basically, there's a substitute for this--basically, 
that just--it just will--it's almost ridiculous what it says 
now.
    So, really, my first question to you is--I don't know 
whether you're aware of this, whether you will look into this. 
Why don't we start with that?
    Secretary Pompeo. I am not as familiar with the report as 
you are. It may have been issued on my watch. I would guess it 
was before that. But I am happy to look into the issues.
    Ms. Frankel. How about the Ambassador position, on global--
--
    Secretary Pompeo. You mean the global women's issue?
    Ms. Frankel. Yes.
    Secretary Pompeo. Yes. Yes, ma'am. It's on my list.
    Ms. Frankel. And how about----
    Secretary Pompeo. By the way, I agree it's important. We 
need to find the right person. I think the issues are 
incredibly important.
    Ms. Frankel. All right.
    The global gag rule has been expanded to not--again, this 
is not--we are not talking about the Federal funding of 
abortion.
    It's been so expanded now that health care money is getting 
cut off from agencies that even might refer or mention services 
that will perform abortions.
    So, basically, contraceptive services--I am not talking 
abortion--contraceptive services are being cut off. My question 
to you is this--whether or not you will take a look and see how 
this is impacting the women's health all over this world.
    Secretary Pompeo. Yes. Always about data and facts.
    Ms. Frankel. You're about--okay. Well, here's what I would 
like you to be about, please.
    Please stop with this--we have, from this administration, 
what I call abortion hysteria. Because of this hysteria, you're 
cutting off health care to women all over the world.
    So if I could just ask you to calm down from this hysteria 
and really take a look at the health of what's happening to 
women and to remember that women's rights are human rights and 
it is absolutely tied into the peace and security and 
prosperity of the world.
    Secretary Pompeo. That's an easy one. I am fully committed 
to that. This administration has demonstrated enormous 
commitment to the health of every woman.
    Ms. Frankel. Well, no, that's not true.
    But thank you for being here.
    Chairman Royce. We go to Scott Perry of Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. Congratulations. Thank you for your 
service on multiple levels. I am confident in your judgment.
    I will begin with an observation. I want to commend my 
friends on the other side for their concern about totalitarian 
communist socialist Russian/Chinese involvement, malign 
involvement and actions in our country.
    The Bolshevik Revolution was in 1917. So for 99 years I 
think it's fair to say that they have been silent on this issue 
and maybe a strong case can be made that they actually helped 
the other side in this issue.
    So for 99 of the last 100, I wish they'd have been where 
they are not. But I am happy to see they finally got in the 
fight and they're here and I am with them in their concern.
    Mr. Secretary, a couple questions. Let's start with 
Ukraine. Is air defense artillery something that the 
administration is considering regarding our actions toward 
Russia and thwarting their activities and continued activities, 
of course, which they deny, but I think with air defense 
artillery present it would be hard to deny that Russian 
separatists were indeed flying over Ukraine if one of their 
aircraft landed on the ground?
    Secretary Pompeo. Is your question about what the Russians 
have moved into the----
    Mr. Perry. No. My question is whether we are considering 
either selling or providing air defense artillery in Ukraine.
    Secretary Pompeo. The administration is committed to 
providing the defensive weapons systems to Ukraine. I don't 
know with respect to any particular weapons system whether 
that's under consideration or not.
    Mr. Perry. Okay. And maybe we can continue the conversation 
along those lines to find more granularity in that and 
specificity, and that includes the conversation that you had 
with my colleague, Mr. Rohrabacher, regarding the Kurds and 
Turkey.
    I love the Turkish people. However, I find no favor with 
the Erdogan regime and I think it's a matter of if, not a 
matter of when. It's a matter of when, not if.
    We have to change our strategy there, and if that's a 
conversation that you're going to have in private or otherwise 
I would like to be involved in that conversation with regards 
to the Kurds and Turkey, air defense in Ukraine.
    I read the State Department classification regarding UNRRA 
and the IG report regarding the supply and content of 
textbooks, and I am unsure why it's classified. And if you 
can't divulge that in this setting I am happy to sit in another 
setting with you.
    But I am interested to know if that's going to change. I've 
read the report. I see no reason. But maybe there's something 
on this.
    Secretary Pompeo. I don't know the answer. I am happy to 
declassify it if it's appropriate.
    Mr. Perry. Okay. So I am interested in follow up on that. 
In Bosnia, I am concerned that there's an October election and 
there's a problem with the constitution. The Dayton Accords 
were never supposed to last 20 years. They have.
    But I am concerned that we are not headed in the right 
place there and I just want to get your thoughts on that. If we 
are going to wait to see what happens, if we are going to take 
preemptive action, I would hate to see that things burn down 
and us end up with the United States having troops on the 
ground there to try and secure the peace and also if we are 
interested in pursuing--putting some forces there, again, to 
thwart Russia and if that's a consideration. So those two 
topics, sir.
    Secretary Pompeo. So let me start, first, with Bosnia. We 
are working on the very issue you described. I can't say a lot 
about it. But you know that the State Department and others--
Department of Defense are there.
    We understand the risk. We think the region is very 
important. We know the--and this transitions to your second 
part of the question, which is we know the Russians are hard at 
work there destabilizing----
    Mr. Perry. As are the Turks, right?
    Secretary Pompeo. Yes. And so there are a handful, 
although, admittedly, not sufficiently sized levers currently 
being employed, and we are working to develop a strategy that 
puts us in a better place.
    There are important parts of the bulwark of democracy that 
we need to continue to work on.
    Mr. Perry. I appreciate that, and I would like to pursue 
that further.
    Mr. Secretary, this is a picture--I am sure you're well 
aware of an M-1 tank manufactured right here in the United 
States, paid for by the citizens of the United States with 
their taxes.
    That has a Hezbollah flag on it. I am concerned and have 
written letters regarding the train and equip program in Iraq 
and the Shi'a Crescent and the land bridges they're building 
across Iraq with the militias there.
    Again, many of the Iranian people want freedom. They want 
peace and they don't agree with the regime that they're 
working--living under.
    But I offered amendments in the NDAA to stop the funding in 
the train and equip program. One was found in favor, one was 
not. So we leave it up to you.
    I want to make sure that you're aware that this is 
happening, including militias like Kata'ib Hezbollah, listed as 
a terrorist organization for killing American soldiers.
    And if the Congress is unwilling to stop it, I hope you 
will be willing to stop the funding of the train and equip 
program in Iraq and funding the Iranian militias that are 
willing to kill Americans and Jews and everybody across the 
Crescent that disagrees with them.
    Secretary Pompeo. I will say this. It is the case that when 
we perform train and equip functions, from time to time 
equipment ends up in the hands of the wrong people. It's a risk 
inherent in those operations.
    The question becomes is the value we are getting from that 
training--those exercises--outweigh the risk that happens. You 
should know that the U.S. Government works diligently to put 
rules and process in place to make that picture or pictures 
like that as infrequent as possible.
    Mr. Perry. I don't think the Iraqis are complying.
    Thank you, Mr. Chairman. I yield.
    Chairman Royce. Thank you.
    Joaquin Castro of Texas.
    Mr. Castro. Thank you, Chairman.
    Secretary, thank you for your testimony. Is the North Korea 
summit going to happen or not?
    Secretary Pompeo. Sir, that decision will ultimately be up 
to Chairman Kim.
    Mr. Castro. So the President----
    Secretary Pompeo. He asked for the meeting. The President 
agreed to meet with him. I am very hopeful that that meeting 
will take place.
    Mr. Castro. You have been to North Korea twice and met with 
North Korean leaders to lay the groundwork for a nuclear 
agreement with Kim Jong-un.
    How do you define the denuclearization of the Korean 
Peninsula?
    Secretary Pompeo. Well, we've said complete.
    Mr. Castro. What does that mean?
    Secretary Pompeo. So there are multiple components of their 
system that threatens America. This would include their weapons 
capability, their missile capability, the technology that goes 
with that.
    So engines and systems associated with space launch 
vehicles in addition to the missile programs and then 
everything that is upstream from that including the production 
of fissile material, the technology that permits the capacity 
to produce that material and all of the engineering and R&D 
connected to that.
    Mr. Castro. Will you leave them with a civilian nuclear 
program?
    Secretary Pompeo. We've said that it won't be appropriate 
for them to have the capacity to enrich. I will say it this 
way. I can't answer that question. I am not in a position that 
I can answer that question for you today.
    Mr. Castro. How will you move out the nuclear material?
    Secretary Pompeo. Well, there will be long hard discussions 
about how the verification of that work will go. It is one of 
the most difficult verification programs that will ever have 
been undertaken.
    We have large teams already at work, preparing in the 
eventuality that we are successful in negotiations so that we 
can achieve that. It'll take many--it's a long hard process. It 
won't be just American. There will be other partners that will 
participate in it as well.
    Mr. Castro. Will you suspect that would include Russia?
    Secretary Pompeo. I don't know if it'll include the 
Russians are not. It certainly would include the IAEA and 
others that have tremendous capacity and expertise in this 
area.
    Mr. Castro. One of the things that has hurt this 
administration is that on any controversial issue of foreign 
policy and domestic policy often--but on foreign you often two 
or three or four different answers depending on who you're 
speaking to in the administration. That was certainly true when 
your predecessor, Rex Tillerson, was Secretary of State.
    So let me ask you, who is in charge of these negotiations? 
Is it you or Mr. Bolton?
    Secretary Pompeo. President Trump.
    Mr. Castro. And who is going to lead up the team?
    Secretary Pompeo. I will.
    Mr. Castro. How many members are on the team and who is on 
the team?
    Secretary Pompeo. I am not going to go into the details of 
how the team is being built out. There are different teams 
work--there are lots of teams that work across all over the 
United States Government, several within the State Department, 
a number in the Department of Energy, Department of Defense. 
There are many folks--folks at the National Security Council.
    There are large teams working not only on--I think your 
question was with respect to the negotiation but there are lots 
of teams preparing for every element of our work on North 
Korea. The existing pressure campaign, which continues----
    Mr. Castro. Sure.
    Secretary Pompeo [continuing]. Our work to ensure that we 
are working alongside of our allies, the Republic of Korea, 
Japan, and China to make sure that we are connected with them 
and developing a comprehensive strategy.
    There's a lot of focus on this summit with that.
    Mr. Castro. Well, let me--I know, and I appreciate that.
    Secretary Pompeo. There's a lot of work to do.
    Mr. Castro. Let me ask you--I talked about getting 
different answers on very controversial and important and 
consequential issues. We saw a prime example of that the other 
day in the middle of a press conference when Mr. Bolton talked 
about the Libya model, which Secretary Mattis has also 
mentioned before, and President Trump corrected him live on 
camera, it seemed like.
    So let me ask you, since you're leading up the team, which 
approach do you take? Are you pursuing the Libya model that Mr. 
Bolton has mentioned? Or do you think that's not appropriate 
here, as Mr. Trump has indicated?
    Secretary Pompeo. I don't think there's the distinction 
that you draw. The model that we have laid forth is a rapid 
denuclearization, total and complete, that won't be extended 
over time, I think, when Ambassador Bolton was speaking about 
this, although, obviously, it would be better to ask him.
    What I think he was speaking of is a comprehensive 
denuclearization that didn't take place in exchanges that 
worked along the way--a slow years-long process where an 
exchange for act X the United States sends a check across the 
transom.
    Mr. Castro. Well, does that include----
    Secretary Pompeo. And he spoke about that and he's saying 
that's not our model and it is, indeed, not our model.
    Mr. Castro. Does that include helping to remove him 2 or 3 
or 4 or 5 years later?
    Secretary Pompeo. We are focused on denuclearization. The 
President has made clear that we are prepared to provide 
security assurances in exchange.
    If we can get America's interest safe and secure, we are 
prepared to do a great deal to ensure that we get that.
    Mr. Castro. Thank you. I yield back.
    Chairman Royce. We go to Mr. DeSantis of Florida.
    Mr. DeSantis. Thanks, Mr. Chairman.
    Welcome, Mr. Secretary. We had a great Embassy dedication 
last week in Jerusalem--long overdue, very successful. The fact 
that we now are recognizing Jerusalem as Israel's capital--will 
you support allowing Americans born in Jerusalem to have Israel 
listed on their passports?
    Secretary Pompeo. You know, the team is looking at that. I 
don't know the right answer. I think the President made the 
right decision to recognize the reality of Jerusalem as 
Israel's capital.
    With respect to important but technical issues about how 
that will manifest itself, the team is going to give me their 
expertise and I will present those options to the President 
shortly.
    Mr. DeSantis. There was strong opposition within kind of 
the rank and file of the State Department for the move to 
Jerusalem. When I travelled last year to look at the Embassy, 
pretty much everyone I talked to said it would be a total 
disaster and that really hasn't happened.
    So is there an issue with group think in the State 
Department kind of at the career level that they're kind of in 
more of one mind? Or do you have confidence that they're all on 
board to implement the President's agenda?
    Secretary Pompeo. You know, I think every team--every team 
I've been part of in the private sector--when I was a young 
lieutenant every team always suffers the risk that the status 
quo is the path forward.
    So I don't--and I view things like that I saw at CIA, too, 
I am sure I suffered as well. And so when leaders make bold 
changes I think teams sometimes lag in their understandings.
    And my observations so far in 3 weeks at the State 
Department is you have a team that very much wants to get out 
and execute America's foreign policy as directed by President 
Trump.
    Mr. DeSantis. Great. In terms of what's going on in 
Venezuela, there's a pretty significant Cuban presence of 
military intelligence. Is that your estimation?
    Secretary Pompeo. I am sorry. Could you repeat the 
question?
    Mr. DeSantis. In terms of the situation in Venezuela, 
propping up the Maduro regime, is part of that the Cuban 
military and intelligence apparatus?
    Secretary Pompeo. In this setting I can say there are a 
great deal of Cuban influence that is working alongside the 
Maduro regime.
    Mr. DeSantis. And it's not helpful to what America wants, 
correct?
    Secretary Pompeo. It runs adverse to U.S. interests--
directly adverse to U.S. interests.
    Mr. DeSantis. The President, before you were Secretary, 
announced a really strong re-evaluation of the Obama Cuba 
policy. Not all of that has been implemented.
    When is all that going to finally be implemented?
    Secretary Pompeo. May I take that for the record? I don't 
know the process or the timing but I will get the answer to 
you.
    Mr. DeSantis. Great. In terms of Iran, I think that your 
speech was great the other day and I think the President's 
decision was the right one. How do we go about--I mean, the 
Iran deal gave them a cash windfall. I guess we are going to 
now be moving to impose new sanctions. Are there going to be 
other things that have not yet been enacted into law that 
you're going to want Congress to do?
    Because it seems to me Order A has got to be choking off 
the money flow to this regime.
    Secretary Pompeo. So Congress has granted the executive 
branch a great deal of power to execute these sanctions 
already. I am, having said that, confident that we will come 
back to you seeking further authority to expand the scope of 
what it is we are permitted to do.
    It also goes beyond just the economic sanctions. There are 
designations. There are issues with respect to visas. There are 
a broad set of undertakings that not only the State Department 
but other elements of government could take to achieve what the 
President laid out, which is to deny around the wealth creation 
opportunities that have permitted them to threaten the world.
    Mr. DeSantis. The Iranian people, obviously, are not happy 
with this regime. I mean, this is a militant Islamic regime 
that's been really imposed on a relatively pro-Western 
populace--educated middle class. We see the protests. The 
President has spoken out I think correctly. What can we do to 
help?
    Because it seems like the regime cracks down on the social 
networks. They don't want there to be a free flow of 
information. But I think it's certainly in our interest to 
empower people who view this regime as illegitimate and not 
representative of their ideals.
    Secretary Pompeo. It's long been a U.S. deeply held 
position that we will do the things we can to ensure that 
peoples all around the world have their human rights, their 
political rights, and their capacity to express themselves.
    We shouldn't shy away from that with respect to Iran 
either. There are a number of tools that we can use, some of 
which I am now responsible for their implementation. Others 
exist other places in government. We should bring them all to 
bear to allow the Iranian people to be governed by the leaders 
that they choose.
    Mr. DeSantis. Final question with respect to North Korea--
and congratulations on being able to be over there. I think you 
have a chance to make history and there's no better guy to be 
in your position than you, in my judgment, to get this done.
    But there's been this issue about the Libya model or not 
Libya model, and I think, as I read it, I mean, 2003 was 
actually a good model because Gaddafi got scared. He realized 
that the nukes were making his regime less stable, not more 
stable--at least his program up to that point. But then you 
have the 2011 Obama model, which is after he agreed to give up 
his weapons they then attack.
    So can you just say what--how does Libya--what's the model 
that Kim Jong-un is going to look at and say, hey, how is 
America going to react if I do a deal with them?
    Secretary Pompeo. I should study the Libya case more 
closely, perhaps. I could tell you what it is that President 
Trump has directed me to do with respect to how we are going to 
proceed against North Korea.
    We are not going to do trade for trade. We are not going to 
let this drag out. We are not going to provide economic relief 
until such time as we have an irreversible set of actions--not 
words, not commitments--undertaken by the North Korean regime 
and when we get there, in exchange for that we are prepared to 
do a great deal to help the North Korean people.
    Chairman Royce. Robin Kelly of Illinois.
    Ms. Kelly. Thank you, Mr. Chair.
    Thank you, Secretary Pompeo, for coming to testify before 
the House Foreign Affairs Committee. I am the ranking member of 
the Committee on Oversight and Government Reform's Information 
Technology Subcommittee and we are currently having a hearing 
on the Federal Information Technology Acquisition Reform Act 
scorecard.
    And I don't know if you knew this but the State Department 
has a D minus, and in 2017 the Department of State scored the 
lowest of any agency on the Federal Information Security 
Modernization Act.
    Secretary Pompeo. I did know that.
    Ms. Kelly. Okay. Well, I guess you don't want to keep that 
score? You do not?
    Secretary Pompeo. I aim for at least a C, quick.
    Ms. Kelly. The 2016 and 2017 Inspector General reports 
found that the primary reason the department has not 
implemented an effective information security program is 
because the chief information officer does not have sufficient 
authority to manage IT activities as provided in the law and is 
not properly positioned within the department to ensure that 
the department's information security program is effective.
    And President Trump--his recent Executive order requiring 
CIOs to report directly to the head of the agency, do you plan 
to follow this order and restructure the CIO position in the 
near future?
    Secretary Pompeo. So I, in just 3 weeks, already spent a 
lot of time staring at this.
    Ms. Kelly. Congressman Meadows is interested in this too 
because we did this together.
    Secretary Pompeo. Yes. This is an important issue. I 
actually saw this in my previous role as well where the agency 
that I ran was in probably a little better position than the 
State Department is but had a great deal of work to do as well.
    We expended a fair amount of resources but, most 
importantly, we made real progress in improving the systems 
there. It is central that we do it here. There are security 
issues surrounding it. There are efficiency issues surrounding 
it. There is data management.
    It is a broad system and, as best I can tell, that D is 
justified. The D minus is justified, and I will empower our 
CIO, but not only the CIO--the Undersecretary for Management 
and everyone that is connected to that and, indeed, you don't 
fix these processes and systems without an organization wide 
commitment. No one person or one team can do it. I will be very 
focused on this and I understand we have a great deal of 
resources to attack the problem.
    But I assure you if I don't have the resources I need I 
will lay out a plan and come back and ensure that we make the 
case to you that we have the resources that we need.
    Ms. Kelly. And the Foreign Affairs Committee always talks 
about being bipartisan but our subcommittee is very bipartisan, 
led by Chairman Hurd, and we want to know what we could do to 
help you implement what you want to do. So----
    Secretary Pompeo. Thank you. There's much work to be done 
but it's important work.
    Ms. Kelly. The State Department has very few women and 
people of color in senior level positions--a problem that was 
exacerbated by your predecessor. During your confirmation 
hearing, you spoke about the importance of diversity at the 
State Department. Currently, there are no minorities in senior 
positions at the State Department. How will you make sure 
senior level officials at the State Department better represent 
the diversity of the United States?
    Secretary Pompeo. I did talk about this during my 
confirmation hearing. It's actually been something I've cared 
about all my life.
    We had some success during my tenure at CIA. We had some 
success when I was running little old Thayer Aerospace back in 
Wichita, Kansas, some years ago to make sure that we had the 
most talented people regardless of their gender, their sexual 
orientation, their race.
    I am confident we can do that at the State Department as 
well. I've asked for the statistics and the history at the 
State Department. I think I have them but not had a chance to 
review them yet. But know that I will empower the 
organization--indeed, demand--that it treat every single human 
being with the dignity and respect that they deserve and that 
we have a workforce that truly does represent America. It's 
important for diplomatic reasons as well as just being the 
right thing to do.
    Ms. Kelly. Thank you, and thank you for your time.
    I yield back.
    Chairman Royce. We go now to Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman.
    Secretary Pompeo, congratulations. Thanks for being here.
    As you know, the world is going through a tectonic shift in 
world powers we haven't seen since World War II. The State 
Department and our United States Government needs the tools to 
effectively counter and balance some of these rising powers, 
i.e. China.
    We can't compete with them dollar for dollar and I greatly 
appreciate your written testimony regarding the BUILD Act. As 
you know, the White House endorsed the measure in a press 
release and encouraged that Congress consider a few changes to 
strengthen institutional linkages between the new Development 
Finance Corporation and USAID and a revised funding structure 
to protect taxpayers from risk.
    This committee worked with the National Security Council, 
OMB, to adopt the White House's proposed changes in the bill 
that was ultimately reported from this committee earlier this 
month and I would like to dive down a little bit more, and ask 
you your opinion of the amended HFAC BUILD Act and if that, in 
your view, more fully aligns with the administration's goals.
    Secretary Pompeo. It does. I don't know the details of it. 
I think this is a very important piece of legislation. I think 
there's real opportunity for the United States if we get this 
right and I am happy to work with you or others on both sides 
of the aisle to get to the right place here.
    Mr. Yoho. I look forward to doing that because that's a 
tool that we need. We met with somebody over at the Pentagon 
and they said how this tool is so critically needed today to 
counter some of these other foreign powers that are rising.
    Secretary Pompeo. If I may--I actually think we can--we can 
counter China dollar for dollar. It won't be taxpayer dollars, 
necessarily.
    Mr. Yoho. Right.
    Secretary Pompeo. But this--America has been great not 
because of the resources we've spent from the Federal but for 
other reasons. I think this bill hits that perfectly.
    Mr. Yoho. I think so, and we are excited about that. So I 
am glad to hear that because that was my next question to ask 
you.
    Let me ask you something else. Earlier this Congress, the 
House passed Chairman Royce's Cyber Diplomacy Act. This bill 
would establish an Ambassador for Cyber Issues reporting to the 
Undersecretary for Political Affairs to ensure that the office 
covers the full range of issues in cyberspace.
    Former Secretary Tillerson presented a plan to this 
committee to create a cyber bureau. Do you plan to implement 
this proposal?
    Secretary Pompeo. I don't know. I am looking at it. I am 
aware of that proposal. There were several dozen proposals 
pending when I arrived. I will take a look. I don't know the 
answer to that.
    Mr. Yoho. Okay. Any information that we can provide you, I 
know they'll be happy to do that.
    So my second question was dependent on that one. Moving to 
North Korea, the President is scheduled to meet with Kim Jong-
un in just under 3 weeks.
    This committee has led efforts to sanction the Kim regime, 
passing both H.R. 757 and the Countering America's Adversaries 
Through Sanctions Act.
    These bills have paved the way for the administration 
policy for maximum pressure. How much more can be applied and 
needs to be done through the use of secondary sanctions?
    I would like to hear your opinion. Do you think we've done 
enough with the other countries that are still dealing with 
North Korea as far as funnelling money through their bank 
accounts?
    Secretary Pompeo. That's an excellent question. We actually 
made really good progress along multiple dimensions, getting 
the entire world to participate in this effort.
    Mr. Yoho. Sure have.
    Secretary Pompeo. It was well done. Not me, others, did 
this good work. But the world came alongside and it's come 
along side. Frankly, our focus today is to make sure that that 
doesn't change. There is a tendency--a historic tendency when 
there are discussions taking place and it looks like there's an 
opportunity for there to be a shift, for folks to back away 
from that----
    Mr. Yoho. Right.
    Secretary Pompeo [continuing]. To make decisions to begin, 
for example, to rehire North Koreans that would remit money. We 
are spending an awful lot of energy working with those 
countries to remind them that this is a meeting--an important 
meeting--but there's a long way left to go and the sanctions 
that are in place today need to remain. There is still work to 
do. There are still gaps in those sanctions. There are still 
financial agents--North Korean financial agents distributed 
throughout the world that we haven't gotten to yet. Know that 
the Treasury Department, informed by the intelligence 
community, working alongside the State Department, is working 
to identify those as well.
    Mr. Yoho. And that's great to hear and like the BUILD Act, 
we see that as a tool that we have for an administration to 
direct foreign policy. And so what we've done through this 
committee, and I chair the Subcommittee on Asia and the 
Pacific, is to call out the Treasury Department on why certain 
entities haven't been sanctioned.
    And one of the ones we are looking at, or two of them, are 
the Agricultural Bank of China and the Chinese Construction 
Bank. We'll go after the smaller ones but I hope that you will 
continue pressure on these larger entities because no bank or 
entity is too large not to sanction, to keep that maximum 
pressure campaign.
    I am out of time. I look forward to working with you.
    Secretary Pompeo. Thank you.
    Chairman Royce. We go to Brendan Boyle of Pennsylvania.
    Mr. Boyle. Thank you.
    Mr. Secretary, I want to ask actually about two areas that 
I don't think you have been asked for the entirety of this 
hearing. The first is with respect to Syria and the $200 
million of the stabilization program.
    I am actually the co-founder and the co-chair of the House 
Free Syria Caucus, along with my colleague, Adam Kinzinger. We 
have both worked a great deal on this issue, give its 
importance.
    So I was quite surprised, shocked, when the announcement 
was made that these funds were suddenly put on hold. I just 
want to describe a few things that our $200 million go toward.
    These are funds to ensure that the White Helmet first 
responders can rush to the scene of an air strike to save 
lives, and as an aside, having had a couple opportunities to 
meet with the White Helmets they are remarkable people who risk 
their lives to rush in to an area that has been bombed by the 
regime, even knowing the regime will then bomb them while 
they're trying to rush in and save lives.
    These are funds for the investigation and prosecution of 
persons responsible for the most serious crimes committed in 
Syria since March 2011, otherwise known as IIIM, the U.N. 
mechanism for accountability for war crimes in Syria--funds for 
digital security for those who are willing to stand up to 
Assad's war machine, a project to counter violent terrorism and 
a basic recovery for those in territory formerly controlled not 
by the ISIS--or not by the Assad regime but by ISIS.
    So these funds do good work and are important in terms of 
U.S. interests. So why was this funding suddenly put on hold 
and what can be done to have that hold lifted?
    Secretary Pompeo. Thanks for the question. So that 
funding--the entire $200 million of that funding is under 
review. I understand that there is a decision pending. I don't 
know what that decision will be and I don't want to talk about 
the internal discussions that we've had.
    I've met the White Helmets, too. I know the remarkable 
work--I know the remarkable people that they are as well. So 
we'll have a decision shortly.
    I will say this. We have also been hard at work at getting 
other countries to provide support as well. This is a region 
surrounded by a number of wealthy countries, each of which has 
a direct interest in the same way that we do in making sure 
that once ISIS is completely removed from the battlefield at 
least as an organization capable of holding real estate that 
doesn't--that they don't come back--that we don't allow that 
real estate to be retaken.
    Mr. Boyle. Let me just, since I only have a couple minutes 
left, switch to a topic that hasn't come up this entire hearing 
and I think gets too little attention here on Capitol Hill, and 
that's Brexit.
    One of the great achievements of American foreign policy 
was the Good Friday agreement. There is concern here on Capitol 
Hill--bipartisan concern as well as concern in Ireland, in the 
U.K., and in the rest of Europe that one of the unintended 
consequences of Brexit might be the ripping up of the Good 
Friday agreement.
    Given the severity of the situation, 32 members of the 
House of Representatives--again, both Democrats and 
Republicans--sent a letter to you requesting that a special 
envoy be appointed to Northern Island, the position that George 
Mitchell held and that a few others have had subsequently.
    Will you appoint or will the President appoint a special 
envoy to Northern Ireland?
    Secretary Pompeo. I don't know. I haven't considered it. I 
am happy to review your letter.
    Mr. Boyle. You haven't considered the issue yet?
    Secretary Pompeo. I haven't considered whether we should 
appoint a special envoy or not. It hasn't----
    Mr. Boyle. That is very concerning. As I mentioned, 32 
Members of Congress have written on this issue. I believe we 
previously have been given positive indications that it was 
under consideration. So the fact that actually this issue 
hasn't been considered by the leadership of the Secretary of 
State, I would urge you to please consider it and to do so 
promptly, as the negotiations right now are at a tenuous point.
    Secretary Pompeo. I am happy to do that.
    Mr. Boyle. Thank you. I yield back.
    Chairman Royce. Thank you. We go to Adam Kinzinger of 
Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here. A lot has changed 
for both of us since we sat next to each other on the Energy 
and Commerce Committee.
    You went and ran the CIA and now you're Secretary of State, 
and I grew a beard. So it's been a pretty interesting--a little 
bit of time.
    I just want to say a couple of quick things. I think it's 
important to note the good work Colombia has done in the 
Venezuelan crisis in terms of housing 700,000 people that have 
crossed their border, 152,000 vaccines in 23,000 children in 
part of this crisis.
    Just a couple of points before I get into my questions. 
First off, there's a lot of discussion about Russia and about 
the Libyan model.
    Firstly, on Russia, I think it's important to note that 
this administration, and I think through your continued 
leadership we'll continue to see it, has been one of the most 
aggressive administrations against Russia that we have seen in 
modern times.
    Everything from pushing back to them in Eastern Europe, in 
Ukraine, and everywhere else, and I think that's important to 
note. We don't have to talk about everything that's being done 
all the time in order to say this has been the most effective 
administration for pushing back against that, not to mention 
energy development, et cetera.
    And on the Libyan model, people are bringing that up a lot, 
and I get it. We all know what the point when it was mentioned 
the Libya model. The point was get rid of all your nukes.
    To push that into when Gaddafi was stabbed in the back of a 
pickup truck is not appropriate. Look, you oppress your people, 
you attack your people, they're going to rise up and take you 
out.
    It has nothing to do with the denuclearization of Libya. So 
I think that's important to note. But I do want to ask you, as 
my colleague had started to talk a little bit about Syria, I 
believe that with the existence of Assad and that oppressive 
regime, it actually creates a cauldron for the recruiting of 
ISIS or the next generation of ISIS or the next al-Qaeda.
    And so I think staying engaged in Syria is essential to 
preventing that from happening in future generations.
    Mr. Secretary, from your perspective, what would be a 
successful outcome militarily and politically in Syria? And I 
know that's a difficult question because it's a very difficult 
conflict.
    Secretary Pompeo. It is difficult--difficult especially to 
do in a short time. Our mission statement is pretty clear--at 
least, the near-term mission statement is pretty clear, right. 
It's to continue--from the State Department's perspective, to 
continue to support the Secretary of Defense's efforts to 
defeat ISIS, to provide the diplomatic space for them to 
achieve that so they don't have threats around them; second, to 
work to de-escalate the violence so that we can set some 
conditions for returnees. There have been a handful, right. We 
are seeing this a little bit in Iraq.
    We hope to be able to set conditions where we can achieve 
that in Syria, although there is an awful lot of work left to 
do. I can walk pocket by pocket in the north. I will meet with 
my Turkish counterpart next week with the expectation that we 
will walk out of there with a plan for how we don't have two 
NATO partners at each other in that space.
    And in the southwest, we see what happens when Iran 
continues to advance, right. The Israelis are going to do what 
they need to do to defend themselves. And so there's an 
important diplomatic role there for us as well. To work with 
the handful of willing partners we have in Syria to create the 
conditions to first take down the level of violence so that the 
Syrian people have a chance, and I will concede this is 
aspirational for--that seems difficult to see today, but have a 
chance to create conditions for themselves which aren't the 
desperate ones in which they've been living for these past too 
many years.
    Mr. Kinzinger. Thank you, and I know it's an issue you're 
passionate about. And I want to echo what Mr. Boyle said about 
the $200 million in aid. You answered that question so I won't 
hammer on that but I am very concerned with what I've seen 
including the freezing of $300,000 for the IIIM, which is 
investigating war crimes. I think we have an obligation as a 
country to prosecute and push back against war crimes and so I 
would hope that part of that review that money is released.
    I do want to shift briefly to the issue of Russia. You 
served on the--you, obviously, understand energy issues as well 
as foreign policy issues. Can you talk about the nexus between 
our ability to push back Russian influence in Europe and the 
development of European energy, our exports, et cetera, and how 
that plays together and what we can do to actually strengthen 
our hand there?
    Secretary Pompeo. So, Representative Kinzinger, this 
slightly simplifies it, but to the extent the Europeans are 
dependent or reliant upon Russian energy, it makes their 
freedom of movement in pushing back against Russia more 
limited.
    And it's a little more complex than that but it is a true 
statement at its core. We have the opportunity--the real 
opportunity to decouple them from Russia across many dimensions 
coming out of the Caucasus. Lots of different parts who can 
deliver this energy.
    America ought to be part of that. We should continue to 
push the Nordstrom II to be ended. We should not increase the 
dependence that Europe has on Russian energy, and if we can 
achieve those things we will put Europe on a much more sound 
footing.
    So if there's a day where there is a crisis, where there is 
a real challenge and Russia decides to use that tool to advance 
its interests that there are substitutes or capacity that that 
power, that lever, that the Russians want to have won't exist.
    Mr. Kinzinger. Thank you. Thank you for your time.
    I yield back.
    Chairman Royce. Norma Torres of California.
    Ms. Torres. Thank you, Mr. Chairman, and Secretary Pompeo, 
welcome to the Foreign Affairs Committee. I wish you the best 
of luck in everything that you do. As a true American, I hope 
that you will represent all of our interests here at home and 
abroad.
    I want to talk to you a little bit about Central America. I 
know that you have been very, very busy working on issues with 
North Korea and the Middle East, and all of that is extremely 
important.
    I hope that you don't lose focus of what is happening in 
our back yards. I've worked with Secretary Tillerson's folks. 
They have been very supportive of U.S. policy in Central 
America.
    I am very concerned about what is happening with 
legislators there, in Guatemala specifically. Are you aware 
that some very corrupt officials and criminals are working to 
undermine the efforts of local prosecutors and judges who are 
fighting against corruption in Central America?
    Secretary Pompeo. Yes, and I know that the team is engaged 
to work to take down the level of corruption there and to 
really, frankly, to enable the Guatemalans to do so themselves.
    There's been some progress there.
    Ms. Torres. Yes. We want to continue and build on that.
    Secretary Pompeo. But much--yes, ma'am, much work remains.
    Ms. Torres. Thank you, and thank you for being committed to 
working to continue to improve the lives of the people in that 
region so they can stay in that region and we can continue to 
reduce the number of young people that are fleeing north to our 
southern border.
    When we become lenient, as we've seen with Honduras, they 
were certified--that country was certified in the midst of a 
terrible election. It was a head-in-the-sand time, I think, for 
us to do that and was a slap in the face to the people of 
Honduras that are facing a dictator.
    So dictators exist in our own hemisphere. Please don't 
forget that. I want to help you to the extent that I can on 
ensuring--and every time you come to this committee I will 
focus on this issue, I promise you.
    I am very concerned from my constituents' perspective on 
what is happening at the White House and who is advising the 
President on foreign affairs issues.
    How do you deal with advising the President and his ongoing 
support of Fox News and getting advice from the TV channels or 
newscasters?
    Secretary Pompeo. So I've had many, many opportunities to 
provide the President with intelligence. I did so most days in 
my previous role. I found him to take on board the professional 
work that the team that I represented then had done. They were 
lively conversations. They were often lengthy conversations. He 
took seriously the information that we presented and I often 
saw him use that information to make decisive actions--to be 
actionable. He based decisions on that. I've only been the----
    Ms. Torres. Are his financial advisors present during these 
meetings?
    Secretary Pompeo. I am sorry. I am sorry. I didn't hear the 
first part.
    Ms. Torres. Are his financial advisors present during these 
meetings?
    Secretary Pompeo. Ma'am, the folks who were present most 
days would have been----
    Ms. Torres. Don, Jr. and Eric?
    Secretary Pompeo [continuing]. The national security 
advisor, myself, a professional CIA officer, the director of 
national intelligence, often the Vice President, the President 
himself, and I think that's it.
    Ms. Torres. Don, Jr. and Eric?
    Secretary Pompeo. I don't believe I ever saw either one of 
them at either of those--at any of those meetings nor in 
meetings that I've had as the Secretary.
    Ms. Torres. Senator Rubio just made a comment earlier 
saying that some in the administration are short-sighted over 
ZTE. I am concerned about that decision and how the President 
came to care more about Chinese workers than the workers at a 
Fontana steel mill in my district and the impact that they 
would have should there be job losses with a trade war with 
China. I am very concerned at how he came to that conclusion 
overnight.
    Secretary Pompeo. I don't believe that's an accurate 
statement about the decision the President made. He is 
incredibly concerned about American workers.
    One of the reason he has taken the approach he has with 
respect to China's nonreciprocal trade arrangements--I am being 
very polite there--I am learning diplomacy as I go.
    Ms. Torres. Okay.
    Secretary Pompeo. These are a very unfair set of rules that 
have harmed American workers for an awfully long time and he is 
determined to change those conditions so we will have more jobs 
here in America.
    He is the first President in a long time to take on that 
challenge with respect to China.
    Ms. Torres. Thank you for your time.
    Chairman Royce. Ann Wagner of Missouri.
    Mrs. Wagner. Thank you, Mr. Chairman, for organizing this 
hearing and, Secretary Pompeo, thank you for your time this 
morning and congratulations to you and your family on your 
appointment. We are grateful for your service and excited to 
see the vitality and dynamism that you're going to bring to the 
State Department, as a former U.S. Ambassador and for 4 years 
deeply involved with State.
    Last week, a bill that I sponsored, the Elie Wiesel 
Genocide and Atrocities Prevention Act, was passed unanimously 
out of this committee and, among other things, the legislation 
highlights the importance of mechanisms like the Complex Crises 
Fund, or CCF, which supports flexible efficient responses to 
unforeseen crises overseas.
    I firmly believe that genocide prevention is possible and 
necessary. But we need to make wise investments in prevention 
that will save lives and taxpayer dollars over the long run.
    The CCF is one of those investments. The Institute for 
Economics and Peace estimates that every dollar invested now in 
conflict prevention is $16 saved.
    CCF funds were recently deployed in Central Africa 
Republic, Burundi, and Jordan. Can you explain how this money 
was used to mitigate atrocities and prevent further violence?
    Secretary Pompeo. I don't know the details of that 
particular deployment of that capital. But it is the case I 
have the great joy now of being the leader of the organization 
that gets to do the diplomacy--that gets to do this good work--
that can do conflict prevention. And there are many, many 
places where we can use those resources to do just that and to 
save the American taxpayer money in so doing.
    And so I look forward to working alongside you. I am not 
familiar with the piece of legislation you described, either. 
But its intent seems incredibly important and noble, and if we 
could achieve that--frankly, anyplace we achieve that we will 
have done a good thing for America and for the world.
    Mrs. Wagner. I think so, too. While the White House fiscal 
year 2019 budget recognized the need for these kinds of rapid 
response capabilities related to prevention, it didn't request 
funding for CCF. How does the State Department plan to rapidly 
kind of mobilize resources to prevent genocide and mass 
atrocities?
    Secretary Pompeo. So if I understand the history there 
right--I've only had one, admittedly short, conversation about 
this--there are resources that are available that are, if you 
will, on standby.
    That is, they could be accessed----
    Mrs. Wagner. Correct.
    Secretary Pompeo [continuing]. With relative speed to 
deploy in the event that we see these issues emerging--that see 
the risk of genocide emerging. It is often the case that it's 
not a resource issue but a political will issue or an 
understanding of the severity of the issue. That is, we, the 
United States, ended up behind the curve. We didn't see it 
coming fast enough or we reacted too slow to make decisions, 
and not the absence of having resources to do so.
    I think the most important thing we can do is make sure 
that we have teams in place that send the flag up that identify 
these challenges and so that we quickly develop decision making 
processes that can put our team on the field to address them 
before the conflict actually gets in a place where there is not 
much we can do.
    Mrs. Wagner. NGOs have found that comparatively small 
investments in community identification and response to threats 
have had great returns. And so how does the State Department 
plan to deepen its investment in community-led peacekeeping and 
peace building approaches?
    Secretary Pompeo. I don't know the answer to that other 
than to say that my experience has been the most effective 
peacekeeping missions have always been driven by folks on the 
ground, by local communities, by NGOs, where we've provided 
some assistance, sometimes financial, sometimes technologic or 
management and leadership, but almost always bottoms up as 
opposed to top down and I think that's what you're describing 
there as well.
    Mrs. Wagner. It is, and, to me, prevention is the key here 
and we have seen so many of these atrocities and genocides 
occurring in many places--the Rohingya. We see it, certainly, 
in Syria. Given also that the Burmese Government has cut off 
Rakhine State to aid workers and international observers, how 
is State working with--I would be interested in how you're 
working with some of the local actors to mitigate the violence 
against Rohingya Muslims in Burma.
    Secretary Pompeo. So it's certainly--the United States is 
involved trying to do that. It's not just the State Department. 
There are others----
    Mrs. Wagner. Right.
    Secretary Pompeo [continuing]. Working as well. It's going 
to take a big team effort. This is an enormous challenge. My 
predecessor worked on this diligently. So has Ambassador Haley.
    Mrs. Wagner. Yes.
    Secretary Pompeo. We all identified the challenge and are 
working to try and find the tools.
    Mrs. Wagner. We are pleased to have that legislation make 
it through markup. I look forward to working with you.
    Chairman Royce. Brad Schneider of Illinois.
    Mr. Schneider. Thank you, and Mr. Secretary, thank you for 
joining us here today. I appreciate your offer for coffee and I 
look forward to having that opportunity.
    Secretary Pompeo. It's not the best coffee but it's coffee.
    Mr. Schneider. I am not a critic.
    But I would like to focus my limited time I have on Iran's 
malign activities in the Middle East and Russia's interference 
in the U.S. election. Earlier when talking about Syria, you had 
a list of four priorities.
    Last among those four was in the southwest. However, in the 
past year, Iran's advance has accelerated and solidified into 
substantial bases and troops.
    I am extremely concerned by Iran's continued and disturbing 
presence in Syria and equally concerned and troubled by the 
administration's lack of a strategy to ensure that Iran is not 
able to maintain a permanent foothold in the country.
    As we have seen in recent months, Iran is provoking Israel 
into conflict and is intent on building a permanent presence 
inside Syria.
    I previously wrote to Secretary Tillerson about my concerns 
and have yet to receive an adequate response. I would like to 
know what specifically is the administration doing to counter 
Iran's influence in Syria and prevent Iran for expanding its 
presence there.
    In particular, what are we doing to thwart Iran's efforts 
to establish permanent bases and their development of an 
indigenous missile-making capability not just in Syria but in 
Lebanon?
    How specifically is the administration supporting Israel, 
our greatest ally in the Middle East and how are we pushing 
back on Iran's activity on Israel's northern border?
    And I have a long list of questions. I suspect I will have 
to take your answers back in writing.
    I also remain concerned by Iran's malign behavior beyond 
Syria--in particular, its continued support for Hezbollah. 
Iran's support has grown beyond weapons transfers to helping 
build missile production facilities in Lebanon to enable its 
indigenous rocket-producing capability for Hezbollah.
    This would be a game changer for Hezbollah and for Israel, 
and represents a very significant existential threat to Israel.
    Hezbollah has also recently achieved significant electoral 
success in the elections earlier this month. How is the 
administration cracking down on Iran's support for Hezbollah? 
What is the administration doing to stop the flow of Iranian 
arms to Hezbollah and to disrupt their efforts to develop this 
indigenous missile production supply chain?
    I am also concerned by the lack of a clear plan and the 
President's subsequent decision to withdraw the United States 
from the JCPOA.
    While I opposed the JCPOA when it was announced due to the 
inherent risks, gaps, and flaws in the agreement, including 
sunsets on limits to Iran's enrichment programs and failure to 
address Iran's ballistic program and malign actions in the 
region, however, once in place this agreement pushed Iran to 
more than a full year away from a nuclear weapon and created a 
window of opportunity for the United States and our allies to 
craft a comprehensive strategy for the long term.
    Iran must never be allowed to acquire a nuclear weapon--not 
now, not for the duration of the JCPOA, not ever. I fear that 
by walking away from the JCPOA this way the administration has 
made it more challenging to ensure that Iran never gets a 
nuclear weapon.
    Earlier this week, you spoke about the administration's new 
Iran strategy and that we will work with allies to counter 
Iran's destabilizing activities, to address their missile 
program and proliferation, and that ``We will also ensure Iran 
has no path to a nuclear weapon.''
    Can you please elaborate on how exactly the administration 
will address Iran's malign behavior, missile proliferation, and 
nuclear program?
    How is this different from actions by previous 
administrations? How do our goals differ? How do the actions we 
are taking differ? How will we measure things differently--
measure their compliance but also measure our progress toward 
the goal that Iran never gets a nuclear weapon?
    And what is your plan if Iran rejects the demands you laid 
out during your speech on Monday?
    Moving to Russia, every week we seem to learn more about 
the sophisticated activities by Russia used to spread 
disinformation and misinformation in our election.
    Our intelligence chiefs have concluded that Russia 
interfered in the 2016 Presidential election and are unanimous 
that they will seek to do the same in 2018.
    You yourself stated earlier this year that Russian activity 
and intentions will have an impact on the next election cycle 
here.
    What are we doing to make sure Russia cannot take action? 
What actions are we taking specifically? What actions remain to 
be taken?
    The State Department's Global Engagement Center was created 
in 2016 to lead U.S. efforts to counter propaganda and 
disinformation from foreign actors.
    I was surprised to learn that we haven't spent any of the 
money necessary or allocated since 2016 to counter their 
efforts and I hope we'll continue to invest in the GEC.
    We didn't spend this money because the department failed to 
act on its transfer authority and wasn't able to hire during 
the hiring freeze. I hope we will take care of this.
    I would like to hear from you how we are going to fix these 
problems so the GEC will have sufficient funding and staff to 
stand up to and counter malicious efforts by Russia and how 
will you ensure that the GEC can effectively lead the 
interagency process with DoD and the intelligence community to 
counter propaganda from foreign states?
    And finally, let me thank you for your pledge to support 
the appointment of a special envoy to combat anti-Semitism.
    Chairman Royce. The gentleman's time has expired. We could 
just do that answer in writing if it's all right, Mr. 
Secretary.
    Secretary Pompeo. Thank you.
    Chairman Royce. We go now to Mr. John Curtis of Utah.
    Mr. Curtis. Thank you, Mr. Chairman and Mr. Ranking Member.
    Mr. Secretary, I am new here and haven't had a chance, like 
my colleagues, to get to know you. But they all speak very 
highly of you and you come with great recommendations.
    Secretary Pompeo. Not all of them. [Laughter.]
    Mr. Curtis. Many of them speak highly of you, and I look 
forward to getting to know you and working with you.
    Secretary Pompeo. Thank you.
    Mr. Curtis. As you know, for almost 2 years Utahan Josh 
Holt has been detained in a Venezuela prison without trial and 
on spurious charges. It's my understanding that Senator Hatch 
has worked hard with you and other members of the delegation--
Congresswoman Mia Love--to bring him home, with his wife, 
Tammy.
    With the heightened political turmoil in Venezuela, I've 
received letters and phone calls, continue to from 
constituents. Just last week, we saw reports of a video of 
Josh, who Facebooked he feared for his life with the riots in 
El Helicoide Prison.
    Like so many Utahans, I am concerned about his safety and 
hoping that the U.S. State Department is doing all they can to 
bring him home.
    Mr. Secretary, can you give me any update or on his 
condition or any efforts underway to bring him home?
    Secretary Pompeo. Unfortunately, I can't give you an update 
on his condition. We were following closely the riots that 
surrounded the place that he's being unlawfully detained.
    I have spoken with many in your delegation and yourself, 
Senator Hatch--I've communicated with Representative Love as 
well. Our team is very focused on getting his return.
    Unfortunately, we are going to have two of our senior 
officials kicked out. So our capacity to reach them on the 
ground will actually be diminished. I am very worried about 
that.
    Know that the plight of Mr. Holt is on our minds and we are 
doing the things we can with the tools we can to encourage the 
Maduro regime to at least, in this one instance, do something 
right and send this fellow back.
    Mr. Curtis. Thank you. On behalf of Utahans and his family, 
I thank you for keeping it top of mind and doing all within 
your power.
    Last Monday, you gave a bold speech and talked about 
pulling out of the Joint Comprehensive Plan of Action--the Iran 
nuclear deal.
    You insisted that Iran end all of its nuclear enrichment 
and close its heavy water reactors. You promised them that if 
they didn't they'd see the strongest sanctions in history.
    Recently, I had a chance to travel in that region. As a 
matter of fact, I followed you through a few countries by a 
couple of days, and without exception there's great concern in 
the region and, interestingly, I heard different opinions about 
staying in the deal, pulling out of the deal.
    But what was unanimous and was not contested is that the 
deal would lead to Iran having nuclear weapons maybe sooner 
rather than later, but eventually having nuclear weapons, and 
that was unanimous among all the countries that I visited 
which, as you well know, is totally unacceptable.
    In addition to the sanctions, what else can we do and what 
else can I expect the Utahans to expect to move us toward a 
situation where we wouldn't have nuclear weapons there?
    Secretary Pompeo. So there are many tools in addition to 
the economic sanctions. There are designations of senior 
leaders that will impact those leaders' capacity to move around 
the world.
    Our efforts in Syria are designed, certainly, to protect 
our friends, Israel, the Jordanians, and others. But to the 
extent we are successful in the counter ISIS campaign, we also 
contain the space in which Iran can move with great freedom in 
set conditions in Syria, which will, for the first time in a 
long time, begin to call out Iran for what they're really doing 
there, which is not fighting terrorism but, rather, working to 
expand their power.
    Iran moves in lots of parts of the world. We are aiming to 
build a global effort, much like we were successful doing it 
against North Korea to call out the Iranians.
    And so if there are Iranians working in countries, we are 
going to work to convince folks that they ought not be doing 
the things that create the wealth, that, frankly, has been used 
in ways that the Iranian people don't want it used.
    Mr. Curtis. Thank you. I agree with that comment about 
their influence.
    We hardly visited a country where you couldn't see an 
Iranian or Russian presence pressing on a border or in some way 
impacting that country.
    Let me quickly turn to North Korea. As the CIA Director, 
you visited there. We have these talks coming up. It seems that 
the expectations have been elevated to anything less than world 
peace, right, is unsuccessful.
    What would you have me take back to Utahans about 
reasonable expectations? Just a really quick answer, please.
    Secretary Pompeo. At its core, this problem gets solved 
when these two leaders both agree that the solution we are 
aiming for--complete denuclearization of North Korea in 
exchange for fundamental assurances for the North Korean 
regime--if we can get the two to agree that that's the end 
state we are working towards, we will have had a good day.
    Mr. Curtis. Thank you. I yield my time.
    Chairman Royce. Tom Suozzi of New York.
    Mr. Suozzi. Thank you, Mr. Chairman.
    Mr. Secretary, thank you so much. You have an enormous 
portfolio.
    Who would consider to be your main point person on 
Afghanistan and Pakistan?
    Secretary Pompeo. So we have a number of people. We have 
Ms. Wells working on it. We have our Ambassador in Kabul, 
Ambassador Bass. We have our Ambassador in Islamabad, 
Ambassador Hale--each of whom is working on implementing, at 
least for the State Department's piece, working on delivering 
the present South Central Asia--against the President's South 
Central Asia strategy.
    Mr. Suozzi. So I have the great honor of also serving on 
the Armed Services Committee and it's clear to me that we 
really have a military strategy to clear and hold in 
Afghanistan.
    It's well thought out. It's a comprehensive strategy. It 
makes sense. I've supported the administration's efforts there.
    But when it comes to the civilian side, it seems like we 
have more of a list than a strategy. We have a lot of little 
things that we are doing both from the State Department and 
USAID that many of our partners are doing, that many different 
agencies throughout the world that are cooperative with us--
India, for example, most recently--but it's a list of things as 
opposed to a comprehensive strategy.
    And this administration has made a decision that we would 
move to--from a calendar-based strategy to a conditions-based 
strategy as to what we are going to do. But we don't really 
know what the conditions are that we are looking for for us to 
move forward.
    What are we going to do? What's our conditions we are 
looking for regarding terrorism? What's our conditions we are 
looking for regarding the form of government and its 
democracy--it's not going to be like our democracy--regarding 
corruption, regarding the economy overall, regarding security. 
So I am really looking for you to try and describe to me the 
strategy we have on the civilian side regarding Afghanistan and 
Pakistan.
    Secretary Pompeo. So there are--you may call this a list. I 
would say it is a set of lines of effort that we are 
undertaking. You laid out some of them--you described them.
    But let me start with the end state--what are the 
conditions that we are looking for? The President made this 
very clear in his remarks, now, goodness--a while back. He said 
we are looking for the conditions where the Taliban no longer 
believes that it can prevail through the use of force--that we 
concede that there's not a military solution to achieving the 
stability and peace in Afghanistan that, frankly, most of the 
world is looking for.
    And so the effort was to apply all elements of the United 
States Government pressure such that the Taliban would come to 
the negotiating table.
    President Ghani, now a couple months back, agreed. He said 
he'd be willing to be part of those sets of discussions. Now we 
need to find the right leadership inside the Taliban to 
participate in those discussions and then we've got to bring 
lots of different groups to bear.
    If you have been there, you know. We have lots of different 
groups that need to view being part of the solution as getting 
for them in their region their particular ethnicity, right--get 
all of those understanding that pieces gives them a better 
outcome than the place Afghanistan has been for the last at 
least 16 years.
    Mr. Suozzi. Mr. Secretary, respectfully, this is obviously 
such a complex issues and there's so much that needs to be done 
to create an Afghanistan Government that will be able to 
provide for its people, and we are not in the business of 
nation building, according to this administration.
    Secretary Pompeo. Right.
    Mr. Suozzi. But there's so much being invested regarding 
everything from schools to infrastructure to electricity, 
toward training not only the police officers but also 
prosecutors.
    I think that we need to really have a document, quite 
frankly, that says to us this is our plan on the civilian side, 
taking into account these many different players that are 
involved here from not only the State Department, USAID, the 
Treasury Department, the DOJ, the DEA, and all these many other 
varied governments, and we don't really have a plan from the 
civilian nonmilitary side, I believe, that says all these 
pieces fit together in a plan.
    And I am not saying this as a criticism. Obviously, you're 
new in this job. But I would like to work together with you to 
try and figure out what that plan is going to be or I am sure 
that there's pieces of it--lots of pieces. It's just not in any 
kind of comprehensive strategy.
    Secretary Pompeo. I welcome the chance to work with you. I 
think it's more comprehensive than you describe. But I am happy 
to work with you so that we can articulate in a way that does 
communicate all the various lines of effort that we are engaged 
in on the nonmilitary side.
    Mr. Suozzi. I've approached a lot of people to try and get 
a document--to try and get something that I can read that says 
this is our strategy--this is our plan--and I haven't been able 
to get that document.
    So there's so many moving pieces. There's so many people in 
the world dedicated toward this effort that I think we need to 
fit it together into one comprehensive plan.
    Hopefully, under your leadership, that can happen.
    Secretary Pompeo. I would welcome that. It's worth 
remembering--you mentioned this, right--it's not just an 
American solution to this. There are----
    Mr. Suozzi. A lot of pieces.
    Secretary Pompeo [continuing]. NATO mission. There are lots 
of other countries working alongside us that have made massive 
commitments to this as well.
    Mr. Suozzi. Well, I hope I will be able to work with you on 
this. Thank you so much, sir.
    Chairman Royce. Mr. Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Secretary, for being here. 
Congratulations as well. It's always good to see a House member 
move up into the administration.
    Secretary Pompeo. Thank you, sir.
    Mr. Poe. I want to cover a multitude of sins, so to speak, 
here. We'll start with Iran.
    The last administration--the previous Secretary, Mr. 
Tillerson, said before this committee that he thought that the 
best end solution for Iran was a regime change--peaceful regime 
change from within.
    Do you still hold that philosophy?
    Secretary Pompeo. What I said on Monday, which is the 
President's policy, is that we are very hopeful that the 
Iranian people will get a chance to elect the government that 
they want.
    Mr. Poe. And are we supporting the dissidents and 
encouraging them or supporting them at least politically and 
verbally in their desire of the protests that they're making to 
have a regime change in Iran?
    Secretary Pompeo. I have certainly spoken, both in my 
previous role and now in this role and then in my previous 
previous role as a Member of Congress, I have spoken about 
supporting Iranians who feel that their voices aren't being 
heard. We should continue to find our voice in doing that both 
as a government and I think individually as well.
    Mr. Poe. And, obviously, here in the audience today we have 
family members of Iranians that have been murdered by the 
current regime, and their desire is that there's a free Iran 
where the people make the decisions and not the Ayatollah.
    Just most recently when we moved our Embassy to Jerusalem, 
Iranian student groups, supported by the administration, 
offered $100,000 for someone to blow up the Embassy in 
Jerusalem.
    That group was sponsored by the IRGC, which is sponsored by 
the Ayatollah. The Ayatollah made the comment, as he has done 
before, ``Death to America.''
    Do you still believe that that is the policy of Iran--long-
term is death to America?
    Secretary Pompeo. Yes.
    Mr. Poe. The withdrawal from the deal has been talked about 
since long before the deal. I commend the administration for 
its bold decision. It was a bad deal. It's a worse deal now.
    I am a little disturbed that former Secretary of State John 
Kerry went to the Europeans and to the Iranians right before 
the decision was made by this administration to try to make 
sure that the deal was not withdrawn from the United States.
    But be that as it may, total support for looking out for 
the interests of the United States. A lot of Americans don't 
realize there was a side deal made by the IAEA.
    Those documents are not public, and looking at those and 
some of the other intel that we've had support the decision 
that's made by the administration to leave the deal.
    Georgia, Ukraine, and Moldova--I've recently visited with 
the Speakers of the House of all three of those nations, and 
they're in a bad neighborhood. They've got the Russians. 
Moldova has Russians in their country. So do the Georgians and 
the Ukrainians. They all have Russians in their country.
    I would hope that we would, as a nation, focus on helping 
those three nations move to the West instead of being tempted 
to go back to Russia. Those Speakers of the House of those 
three countries are coming to the United States this summer.
    I hope that there's time on your calendar to meet with 
them, if that is possible, so that we can encourage them and 
help them to be a free country as opposed to one that's still 
influenced by the Russians.
    Turkey--do you think Turkey should stay in NATO?
    Secretary Pompeo. They have been an important NATO partner. 
If Secretary Mattis was sitting here he would say we need them 
to be a NATO partner.
    I would agree with that assessment. We need their behavior 
to reflect the objectives of NATO and it's what we are 
diligently working to do, to get them to rejoin NATO in a way 
that their actions that are consistent with what we are trying 
to achieve in NATO and not take actions that undermine its 
efforts.
    Mr. Poe. Mr. Connolly and I are on the U.S. delegation to 
the NATO Parliamentary Assembly, which meets this weekend. I 
hope we can bring up this subject of Turkey being a bad child 
of NATO.
    Most recently, they have purchased or received S-400s from 
Russia, missiles--which violates sanctions by the United States 
on Russia. At the same time, they want to buy F-35s.
    Your department makes the decision on whether or not they 
will be allowed to purchase F-35s. Have you made that decision 
yet?
    Secretary Pompeo. I have not, and we continue to work to 
keep the Turks in a place where they don't actually acquire the 
S-400.
    Mr. Poe. All right.
    Secretary Pompeo. I don't believe they have it yet and we 
are hopeful they'll never take possession.
    Mr. Poe. All right. Thank you.
    Chairman Royce. We go to Ted Lieu of California.
    Mr. Lieu. Thank you, Mr. Chair, and thank you, Secretary of 
State Pompeo for your civilian service as well and your 
military service. I also appreciate you being here today and 
agreeing to testify.
    I would like to ask you about the conflict in Yemen, but 
before that, I just need to ask you a few questions about 
official statements the President of the United States made 
this morning on his Twitter account.
    He said there is a criminal deep state and, as you know, 
Representative Nunes has said he's also going to investigate 
the State Department.
    Do you believe there is a criminal deep state at the State 
Department?
    Secretary Pompeo. I haven't seen the comments from the 
President. I don't believe there's a deep state at the State 
Department.
    Mr. Lieu. Thank you.
    You formally served as CIA Director. Do you believe your 
colleagues at the CIA are part of the criminal deep state?
    Secretary Pompeo. You know, this term deep state has been 
thrown around. I will say this. The employees that worked for 
me at the CIA nearly uniformly were aimed at achieving the 
President's objectives and America's objectives.
    Mr. Lieu. Thank you. And that's your experience also when 
you interact with colleagues at the FBI and Department of 
Justice as well?
    Secretary Pompeo. Yes. There are always exceptions to every 
rule. I've never led and organization that didn't have bad 
actors. I don't think any government organization is exempt 
from having malfeasance as well.
    Mr. Lieu. But, in general, you are confident that the 
members of the various agencies are honoring their oath to the 
United States Constitution?
    Secretary Pompeo. Yes, in general. Yes, sir.
    Mr. Lieu. Thank you. I would like to ask you now about 
Yemen. As you know, the war in Yemen is now the world's worst 
humanitarian disaster.
    Over 22 million people are now at risk of starvation. Eight 
million don't know where their next meal will be and every 10 
minutes a child dies of preventable causes.
    So the U.S. is involved in Yemen in two ways. One is we are 
striking terrorists. I don't have a problem with that.
    But the other way we are involved is we are assisting the 
Saudi-led military coalition and, again, I don't have a problem 
with assisting our allies.
    But I have a problem when that coalition is killing large 
number of civilians through air strikes that are nowhere near 
military targets and as of last September more than 5,000 
civilians have been killed, the majority from these air 
strikes.
    In 2016, the State Department--its lawyers--wrote a memo 
saying that because we are refuelling these planes--these Saudi 
jets, and also providing them other assistance--that U.S. could 
be considered a co-belligerent and liable for war crimes.
    I know you just came on as Secretary of State. I wonder if 
you had a chance yet to read that memo.
    Secretary Pompeo. I have not.
    Mr. Lieu. At your convenience, if you----
    Secretary Pompeo. But I will. I will review the memo.
    Mr. Lieu. Thank you. I appreciate that.
    And if you could also make a request to your State 
Department to see if Members of Congress could also review that 
memo in a classified setting as well, that would be 
appreciated.
    Secretary Pompeo. I take it you have not had a chance to 
see it?
    Mr. Lieu. We have not. So if you could make that request 
that would be great.
    Secretary Pompeo. I will review that, absolutely.
    Mr. Lieu. Thank you.
    So when this conflict first started, we had all these air 
strikes and a Saudi-led coalition, and what it turned out is 
it's not that they were trying to hit a Houthi vehicle that was 
moving, they missed, and struck a bunch of civilians.
    What ended up happening is they intentionally struck those 
civilian targets. So they struck hospitals, weddings, schools, 
markets, and last year they struck a funeral that killed 
hundreds of people, twice.
    So they hit this funeral and the jets went around and hit 
it again a second time, very precise. That's why the Obama 
administration actually stopped shipment of precision-guided 
because the realized these jets are intention to strike their 
targets and they were civilians.
    It's my understanding that the Trump administration is now 
going to go forward with that sale. Just wondering why do you 
think anything has changed in Yemen that would authorize this 
sale to go forward?
    Secretary Pompeo. So I am personally familiar with the 
incident you're describing. There are a very rigid set of rules 
that are thought deeply about in every national security that 
I've been part of at the CIA before, now at State Department, 
with respect to providing munitions to organizations that are 
intentionally engaging in civilian targeting.
    We have a complex set of rules and prohibitions. We would 
never do that. It is this administration's judgement that 
providing the precision guided munitions actually decreases the 
risk to civilians, and it's for that reason we think this 
actually makes sense certainly for our allies and partners but 
also for citizens that are engaged in ordinary activity inside 
of Yemen.
    If I might, this administration has also taken serious 
action to do our best to reduce the humanitarian crisis that is 
Yemen as well. We have not resolved it but we have made real 
progress.
    Mr. Lieu. Thank you.
    Chairman Royce. Tulsi Gabbard of Hawaii.
    Ms. Gabbard. Thank you, Mr. Secretary, for your testimony 
and for sticking it out.
    As you know, there is no more urgent or greater threat to 
my constituents in the state of Hawaii and to this country than 
the threat of nuclear weapons coming from North Korea.
    As we meet today, we are literally at a historic moment in 
time where we have a brief window of opportunity to peacefully 
denuclearize North Korea.
    Chairman of the Joint Chiefs of Staff, General Dunford, has 
remarked numerous times about how pursuing a military option 
with North Korea would be horrific on a scale not seen since 
World War II.
    I commend your travels to meet with Kim Jong-un to lay the 
groundwork for these negotiations with the goal and objective 
of verifiable and complete denuclearization of North Korea.
    This path forward should not be riddled with politics. 
There's far too much at stake here. It's unfortunate that some 
of our colleagues and some of the media are against this 
meeting and trying to undermine this meeting from happening--
trying to say that we should set preconditions that are 
unrealistic or that the North Korean leader does not deserve to 
meet with the U.S. President.
    They are, clearly, out of touch with the reality that faces 
my constituents in Hawaii and the people of this country and 
the urgency and the seriousness of this threat. They believe 
that somehow we should not be meeting with who may be our 
adversaries or who are dictators or leaders of countries that 
are not our allies even as we are trying to further the cause 
of peace. This attitude is dangerous and short sighted and can 
only lead to more war and suffering.
    There are numerous examples throughout history--JFK, Nixon, 
peace agreements between Israel-Egypt, Israel and Jordan, 
Reagan, Gorbachev--there are many examples of leaders making 
this step to meet with those that may be their adversaries to 
further the cause of peace.
    So I encourage you and hope that you will continue your 
efforts and that the meeting between Kim and President Trump 
moves forward as planned so that we can achieve this historic 
moment of denuclearization with North Korea.
    I've introduced a resolution that's before this committee, 
H. Res. 861, that has bipartisan support and co-sponsorship 
that states this sense of Congress in support of the efforts 
that this administration is taking to achieve this goal of 
denuclearizing North Korea.
    In the time remaining, I am wondering if you can share more 
insights and details on your meetings and the administration's 
desired framework.
    You talked about earlier security assurances for North 
Korea. It is something that they have set as a requirement in 
order to achieve denuclearization. What does that mean and what 
does that look like?
    Secretary Pompeo. So, first of all, thank you. I am hopeful 
to that the meeting will progress. You identified a number of 
situations throughout history where conversations with 
adversaries worked.
    In each of those cases, if I read the history--at least the 
way I read the history--it was the timing that was right and 
the leaders that were right.
    I am convinced that we have both the timing and, in this 
case, the leaders right for this meeting to have an opportunity 
to be historically successful and I hope that we can achieve 
that.
    With respect to the framework, I don't--I would prefer not 
to provide a whole lot of detail about what the scope of those 
assurances is.
    But it goes without that Chairman Kim's view--frankly, his 
father and grandfather's view--was that the nuclear weapons 
that protected the regime. That was the security blanket.
    And so they have worked diligently over years and years to 
develop this weapons system to the point where in fact it does 
threaten the United States today, your home state in 
particular.
    We now have this chance to stand that on its head, to 
convince them that it's in fact those nuclear weapons that 
present the greatest risk to the regime and to the North Korean 
people and that we are prepared to do the things that provide--
the comfort and security that he knows that he can take away 
this thing that he's depended on and, frankly, he had told his 
people for a long time that this provided their security to 
convince that, frankly, joining the list of civilization--the 
nations that participate in that is actually going to provide 
security for their people.
    So we need to provide him a whole list of--it's not just 
us--the South Koreans will have to do the same. China will play 
a very important role here, so will Japan and, frankly, the 
Russians will have a role in this along the way as well, 
ensuring Chairman Kim that we want good things for the North 
Korean people.
    If we can do that--if we can build the trust and confidence 
there along the way, we have a real opportunity to get the 
denuclearization that your state and America and, frankly, the 
world so desperately need.
    Ms. Gabbard. Thank you.
    Chairman Royce. We go to Adriano Espaillat of New York.
    Mr. Espaillat. Thank you, Mr. Chairman, Ranking Member 
Engel.
    Thank you, Mr. Secretary, for taking all this time. I am 
usually, like, the last--I am the Mariano Rivera of this 
committee.
    Secretary Pompeo. I was a junior member when I left, too. I 
know exactly how you feel.
    Mr. Espaillat. I am the closer, and very often the 
questions that I already have been asked by somebody. But I do 
want to turn to the Western Hemisphere, because I sit on that 
subcommittee.
    Very often people across America are under the impression 
that we are giving away the store when in fact it's only, like, 
a percent of the budget. And so this erroneous belief out there 
that we are spending money all over the world and sort of not 
taking care of people back home.
    But I am concerned that in the Western Hemisphere, we sort 
of turn our heads and we've been a little bit too complacent 
and maybe even abdicated our leadership role in Latin American 
and as a result all these bad things have happened.
    China is now very much present. Panama, Costa Rica, and 
most recently the Dominican Republic have stabilized 
relationship with a country that still engages in currency 
manipulation, in the stealing of our intellectual property 
rights, fraud. They don't even allow their population to have 
access to applications such as Wikipedia, What's App, even 
Facebook.
    And so what can we do to re-establish our presence in that 
area? I met recently with one of the Latin American leaders and 
he said to me, name me one major project, one major 
infrastructure project that America is involved in investing.
    As proposed to do in many of these countries--frankly, Mr. 
Secretary, as they say in the schoolyard, they're eating our 
candy. There is something that we have to do to establish 
ourselves back and it's going to entail, potentially, a fiscal 
commitment to the region as well as reestablishing our strong 
presence there.
    What do you propose we can do to reestablish our leadership 
role on Latin America and engage vigorously in projects that 
will improve the quality of life for many of these countries?
    Secretary Pompeo. I think there's at least two questions in 
there. Let me try and tackle each of them.
    The first is China and China's involvement there. It's not 
only true in South America. It's true in other parts of the 
world as well but particularly in South America, I would agree 
with you.
    I am convinced that the candy that they're eating will 
cause bad things to happen and that the people of South 
American will come regret taking these investments.
    And so we have a role to explain to them what it is the 
Chinese are really engaged in there. They're not doing this 
because they care about the people of Peru or Colombia or 
anyplace else.
    They're doing it to expand Chinese influence and they are 
making loans that will one day be required to be repaid and the 
Chinese influence in those countries will be devastating for 
those people.
    So we have a responsibility to talk about this openly about 
what the Chinese actual aims are, why it is they're using their 
capital to buy influence around the world.
    Second, how can America be more involved? So there are 
certain places where there will be resources required. I think 
that's likely true. But it's often the case that when America 
has demonstrated leadership in other places in the world it 
hasn't been our money that we've led with. It's been our 
presence, our leadership, helping democracies stand up, things 
like the rule of law.
    I was always reminded when I was Director of CIA I had one 
of my counterparts in a very difficult part of the world tell 
me that America's spent a lot of money here--they've done a lot 
of things--the most important thing America did was they worked 
alongside our officers to show us what it means to work in a 
democracy--how to do the right thing--how to get up every day 
and go to work, and the intrinsic core of who the American 
people truly are.
    And so I do think it's important that my team that are 
working out of Embassies and consulates around the world is out 
there every day interacting, engaged, proudly talking about the 
things that America does and how we do it.
    If we do that, I think we can have an enormously good 
impact around the world but, certainly, in real opportunity 
countries in the Western Hemisphere as well.
    Mr. Espaillat. One quick last question. If the threats 
against Israel continue to mount, will the administration 
consider examining whether to increase current funding at an 
adequate level?
    Secretary Pompeo. I am confident that the administration 
will do what it needs to allow Israel to have the capability to 
defend itself.
    Mr. Espaillat. Thank you, Mr. Secretary.
    Chairman Royce. We go to Mr. Gerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman, and welcome, Mr. 
Secretary.
    I was just reflecting that I've, on and off, been working 
here on the Hill for 20 years. You're my 10th Secretary of 
State. So welcome and good luck in your new assignment.
    Secretary Pompeo. That puts the mean at, roughly, 2 years. 
I am going to try and beat it. [Laughter.]
    Mr. Connolly. Well, Mr. Secretary, you remember this body 
and certainly a part of and subjected to the sort of partisan 
rancour that all too often accompanies the work we do up here.
    Now you're in a new role, and I want to give you a quick 
opportunity to comment on how you see that new role in terms of 
working with Democrats.
    Secretary Pompeo. Yes.
    Mr. Connolly. Who also love their country and want to see a 
successful U.S. foreign policy.
    Secretary Pompeo. I would more than concede that point, 
that everyone on this committee and, frankly, every Member of 
Congress comes here with a noble and patriotic objective.
    I will equally concede the point that as a Member of 
Congress, I could do partisan with the best of them, and I 
understand that we all had constituents that had different 
views and we did our best to represent.
    I hope that during my time I did that for the people of 
south central Kansas. They might well have had different views 
than the people of your district or other members' districts.
    I hope--and there were exceptions to this but I tried every 
day to do that with dignity and respect. I didn't always quite 
achieve it, but I tried. In this role I will do the same.
    You have my word. I will work with members from both sides 
of the aisle to achieve America's foreign objectives. We'll 
disagree often about how to get there.
    But I will be surprised if it's frequently the case that we 
disagree about what we are trying to accomplish.
    Mr. Connolly. I very much appreciate that. Thank you.
    Mr. Secretary, given the unprecedented and troubling 
Russian interference in our 2016 elections, which have been 
certified by all of our intelligence agencies including the one 
you headed when you were there, Congress passed and the 
President signed the Countering America's Adversaries Through 
Sanctions Act, which includes at least seven mandatory sanction 
provisions against Russia--mandatory sanctions--Russian 
undermining cybersecurity, Russian crude oil products, Russian 
financial institutions, dealing with Russian corruption, 
sanctions evaders, human rights abusers, on and on.
    There were seven major mandatory sanctions with respect to 
Russia. How many of those mandatory sanction provisions has the 
President imposed?
    Secretary Pompeo. I don't know how many of those different 
authorities have been used. I know that there have been 
significant sanctions imposed under CAATSA and I know that 
there are many more in the queue.
    But I couldn't tell you which--how many of those seven have 
been used. I will bet you can tell me.
    Mr. Connolly. Yes, Mr. Secretary. The answer is one.
    And I think, on a bipartisan basis, that bill passed 
overwhelmingly, as you know, here in the Congress and I think 
it absolutely expressed a certain point of view with respect to 
that subject--not just that subject but certainly that 
subject--and I think we do expect full compliance with the law 
by the administration and I would give you the opportunity to 
pelage your commitment to that implementation of what is now 
statute.
    Secretary Pompeo. Yes, sir. You can count on--may I give 
you one caveat to that?
    Mr. Connolly. Of course.
    Secretary Pompeo. It is the case that Secretary Mattis and 
I are both working to find places where we think that 
legislation did not give us enough to make sure that we don't 
do something that was unintended with respect to some of our 
allies who have historic relationships with, in particular, 
Russian equipment.
    And so we--I think Secretary Mattis will take the lead but 
I will be part of it alongside him to see if we can get 
Congress to consider giving us waiver capacity so that we can 
ameliorate are not the intended objectives of the CAATSA 
legislation.
    Mr. Connolly. Thank you.
    I have a quick last question, because I am going to run out 
of time--gosh, I wish we had more time--earlier this month in a 
story by Ronan Farrow, I think in the New Yorker, it was 
reported that a company called Black Cube involving Israeli 
official--not officials, operatives--investigate former Obama 
administration officials who were involved in the Iran nuclear 
negotiations. Are you aware of that story and were you familiar 
with any aspects of that allege investigation?
    Secretary Pompeo. I am familiar with the story but I read 
it as new information in the same way that it sounds like you 
did as well.
    Mr. Connolly. And to your knowledge, the administration had 
no involvement in said activity?
    Secretary Pompeo. To the best of my knowledge, that is 
absolutely correct, sir.
    Mr. Connolly. I thank you, Mr. Secretary. Look forward to 
working with you.
    Secretary Pompeo. Thank you.
    Chairman Royce. Mr. Secretary, the administration has taken 
strong action, including recently sanctioning seven oligarchs 
with close ties to Putin along with 12 companies that they own 
or control under CAATSA.
    We'll continue to push for full implementation of CAATSA. 
Not only that, but in addition to CAATSA we are also calling 
for the Senate to pass the Caesar Syria Civilian Protection 
Act, which the House now passed into the Senate and which would 
impose significant sanctions on Russia for its support for the 
monstrous Assad regime's actions.
    I do want to thank you for engaging with the committee, Mr. 
Secretary. You have said you want today to be the start of a 
close collaboration with us--and I know you well enough to know 
that you're very sincere about this and I deeply appreciate the 
time you have spent with us here--the capability for every one 
of our members to engage.
    I look forward also the dialogue we've had about continued 
discussions for the members here.
    Mr. Secretary, the challenges facing our Nation are 
daunting. We've heard about many of them today. But we didn't 
hear so much about the opportunity for Americans worldwide.
    Americans are doing great things as private citizens. 
They're doing great things as--in terms of the charities that 
they run throughout this worlds--the business that engage 
across the planet.
    And the State Department often helps them in this regard. 
Americans shouldn't be afraid of the world. We can do a great 
deal to improve it, and I know that you understand that, Mr. 
Secretary.
    So, Mike Pompeo, thank you very much and we look forward to 
our--I have just been reminded by the ranking member that there 
may be one other member coming through the doors as we speak, 
and that would be Karen Bass of California.
    Secretary Pompeo. Of course.
    Chairman Royce. So we will give her her 5 minutes.
    Thank you for the 3-plus hours that you have spent with us 
here this morning.
    Ms. Bass. And thank you, Mr. Chair.
    As always, Mr. Pompeo--Secretary Pompeo--I am sure you know 
we have a very bipartisan committee here with wonderful 
leadership, and I know you were hoping to get out the door. I 
am not going to hold you long.
    Secretary Pompeo. Ma'am, I've got all 5 minutes.
    Ms. Bass. Okay. Well, and I know you know because you have 
been on the other side.
    Secretary Pompeo. I have.
    Ms. Bass. And so we are definitely proud of your success 
and are excited about you beginning your tenure at the State 
Department.
    Secretary Pompeo. Thank you.
    Ms. Bass. So I really would like to ask you about the DRC 
and the worsening situation there. I have met--we had a Africa 
policy breakfast about this. We've had hearings, et cetera, and 
what I am really worried about is that the President has said 
he's going to have elections in December.
    He has not said he's not going to run. There is no faith 
that he's actually going to have those elections since they 
were originally supposed to be in December 2016.
    And so I just wanted to know what our policy is going to 
be, moving forward, and what type of benchmarks are we going to 
hold him to?
    Secretary Pompeo. So there are many challenges in the DRC, 
as you well know. We are worried about global health issues 
there----
    Ms. Bass. Right.
    Secretary Pompeo [continuing]. Certainly, which adds a half 
twist to the triple somersault, and just makes it more 
complicated.
    With respect to the DRC's election process, we've got teams 
working diligently to push forward to try and find that 
democratic solution that, frankly--I think you said December 
16--the problem has been longer than that.
    There's a great deal of work. What I would love to do is 
get back to you and provide you with a detailed list of our 
activities. Know that I think we share the same policy outcome 
objective that you have just described.
    Ms. Bass. So I would appreciate that, because there are a 
few of us that plan to go soon and to have the ahead of time, 
because right now I am just worried that we might have sent a 
mixed signal--that my big concern is that it actually adds to 
the confusion, especially because we have not secure anything 
from him saying that won't run a third term.
    Now moving on to another crisis, South Sudan, and the idea 
that we need to have a weapons embargo for sure, but just 
wondering where you see things going there and what our policy 
is there and, in addition to that, Sudan, in terms of moving 
forward with relaxation of sanctions. But we also are concerned 
about a young woman who's on trial there for her life and a lot 
of questionable circumstances around that.
    And so I wanted to know about those two areas--South Sudan 
and Sudan.
    Secretary Pompeo. Let me try the region for you and----
    Ms. Bass. Okay.
    Secretary Pompeo [continuing]. See how they fit into that 
picture.
    I was--I think it was my second to last trip as the CIA 
Director was in and around that region. So I got a chance to 
see it for myself just a little bit at least.
    So there are lots of countries that try and help what's 
going on in both of those places--Sudan and South Sudan--who 
share America's objectives.
    I don't think America is going to have the capacity to deal 
with that on our own. I think we need to find partners in the 
region that are prepared--those that share our view to move 
forward together.
    I did advocate in my previous role for the relaxation of 
sanctions against them.
    Ms. Bass. Yes.
    Secretary Pompeo. They had made marked improvement.
    Ms. Bass. Right.
    Secretary Pompeo. But relapse is always a risk and we need 
to continue to provide them assistance but ensure that they 
don't turn back to the place that they were before.
    I think the direction there is good.
    Ms. Bass. I do, too.
    Secretary Pompeo. But we need to be mindful and we need to 
provide support to further good works.
    If we do that, I think we can get a really good outcome. 
Something 5 or 10 years ago----
    Ms. Bass. Right.
    Secretary Pompeo [continuing]. We would have all thought 
not possible. South Sudan is trickier and much more difficult. 
I've got just a few seconds so I will leave you with this 
thought.
    It is incredibly important that we get that piece right for 
all the reasons you describe plus the risk that extends from 
terrorism in the region that threatens not only global terror 
and the efforts from their hiding spaces but the uncertainty it 
provides to the people of the region.
    We have a real responsibility to try and get that right. It 
is a devil of a problem.
    Ms. Bass. Exactly. And one of concerns too in going to 
Sudan is the state sponsor of terrorism designation and what 
that does. It actually complicates things on both sides.
    And so, you know, as moving forward and, of course, hoping 
that they continue to move forward it obviously is contingent 
on that, but that we do have to take a look at that category.
    Secretary Pompeo. Yes, ma'am. I completely agree.
    If we can continue to see progress I would love to see us 
be able to rescind that.
    Ms. Bass. Great. Thank you very much, and appreciate you 
allowing me the time, Mr. Chair.
    Chairman Royce. Thank you, Congresswoman Bass.
    And with that, Mr. Secretary, we stand adjourned.
    Thank you.
    [Whereupon, at 12:31 p.m., the committee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
